<html>
<title> - A WAY BACK HOME: PRESERVING FAMILIES AND REDUCING THE NEED FOR FOSTER CARE</title>
<body><pre>[Senate Hearing 114-304]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-304

 A WAY BACK HOME: PRESERVING FAMILIES AND REDUCING THE NEED FOR FOSTER 
                                  CARE

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             AUGUST 4, 2015
                               __________




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                     
                                     

            Printed for the use of the Committee on Finance
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-779-PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)





















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                               WITNESSES

Killett, Sandra, parent advocate, New York, NY...................     6
Burton, Rosalina, former foster youth, Escondido, CA.............     9
Butts, Donna, executive director, Generations United, Washington, 
  DC.............................................................    10
Nyby, Charles, Differential Response and Safety Operations and 
  Policy Analyst, Child Welfare Program, Oregon Department of 
  Human Services, Salem, OR......................................    12
Williamson, Ann Silverberg, Executive Director, Utah Department 
  of Human Services, Salt Lake City, UT..........................    14

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Burton, Rosalina:
    Testimony....................................................     9
    Prepared statement...........................................    31
Butts, Donna:
    Testimony....................................................    10
    Prepared statement...........................................    34
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    38
Killett, Sandra:
    Testimony....................................................     6
    Prepared statement...........................................    40
Nyby, Charles:
    Testimony....................................................    12
    Prepared statement...........................................    44
Williamson, Ann Silverberg:
    Testimony....................................................    14
    Prepared statement...........................................    48
    Response to a question from Senator Portman..................    50
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    51

                             Communications

Balderamos, Janell...............................................    53
Children's Hospital of Wisconsin.................................    53
Donaldson Adoption Institute.....................................    55
Perin, Deborah...................................................    56

                                 (iii)
 
                            A WAY BACK HOME:
                    PRESERVING FAMILIES AND REDUCING
                        THE NEED FOR FOSTER CARE

                              ----------                              


                        TUESDAY, AUGUST 4, 2015

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:10 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Cornyn, Thune, Portman, 
Toomey, Scott, Wyden, Stabenow, Cantwell, Brown, Bennet, and 
Casey.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; and Becky Shipp, Health Policy Advisor. Democratic 
Staff: Jocelyn Moore, Deputy Staff Director; and Laura 
Berntsen, Senior Advisor for Health and Human Services.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    Robert Frost once wrote, ``Home is the place, when you have 
to go there, they have to take you in.'' Unfortunately, for far 
too many children in our foster care system, that type of home 
is not available.
    Today the Senate Finance Committee will hear testimony on 
alternatives that can reduce the reliance on foster care group 
homes. I have been very pleased to have worked on this hearing 
with Ranking Member Wyden. In fact, I enjoy working with him on 
everything that we have been working on.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. This is a bipartisan hearing, and I 
appreciate Senator Wyden's efforts--as well as those of his 
staff--to make it so.
    The basic premise of this hearing is simple: whenever 
possible, children should grow up in a home with their family. 
When problems arise, attempts should be made to keep children 
safely at home. If a child cannot be kept safely at home, 
efforts should be made to place them with fit and willing 
relatives.
    Children and youth should only be placed in group homes for 
short periods of time, and only when efforts to place them in a 
safe family setting have been exhausted. Too many children and 
youth spend years isolated and confined in foster care group 
homes.
    This past May, the committee held a hearing on the need to 
safely reduce reliance on foster care group homes. We heard 
powerful testimony from a former foster youth about her 
negative experiences in a foster care group home. The committee 
also heard testimony about how expensive, inappropriate, and 
ultimately detrimental placement in these homes can be for many 
children and youth.
    I believe that we should do whatever we can to reduce the 
reliance on foster care group homes. There is a point when we 
should refuse to spend scarce taxpayer dollars to subsidize a 
placement that we know results in negative outcomes not only 
for children but youth as well. As I have said in the past, no 
one would support allowing States to use Federal taxpayer 
dollars to buy cigarettes for foster youth. In my view, 
continuing to use taxpayer dollars to fund long-term placements 
in foster care group homes is ultimately just as destructive. 
However, it is not sound public policy to work to reduce the 
reliance on group homes without addressing the need to support 
a family placement for children and youth currently in or at 
risk of entering one of these facilities.
    The purpose of this hearing is to examine alternatives to 
foster care group homes. Such alternatives include allowing 
States to use their Federal foster care funds for the purpose 
of providing services and interventions that can result in 
allowing children to stay safely at home.
    Currently, the Federal Government devotes the highest 
proportion of its Federal foster care funding to the least 
desirable outcome for vulnerable families: removal of a child 
from his or her home and placing them in stranger care or in a 
foster care group home. Current Federal foster care laws 
prohibit States from using certain Federal funds to provide up-
front services that could ameliorate harmful conditions in the 
family home.
    Some States, like Utah for example, believe that they can 
reduce the need for foster care if they use certain Federal 
funds to provide front- and back-end services to families. In 
2011, Chairman Baucus and I drafted legislation that allowed up 
to 30 States to get waivers in order to innovate and use their 
Federal foster care dollars to provide these up-front services.
    Today we will hear from an official from my home State of 
Utah on how this flexibility has improved outcomes for children 
and families, reducing the reliance on foster care. I believe 
we should extrapolate from Utah's innovative HomeWorks 
initiative as a model for all States. When you ask a child who 
has been in foster care how we can best improve the current 
foster care system, often the answer will be: ``You could have 
helped my mom so that I did not have to go into foster care in 
the first place.''
    When a child cannot remain safely at home or assisting the 
parents to maintain guardianship is untenable, another 
alternative is to locate a fit and willing relative for the 
child. And in recent years, Congress has taken some steps to 
increase these types of outcomes.
    For example, in the landmark legislation Fostering 
Connections to Success and Increasing Adoptions Act of 2008, 
Congress allowed States to get Federal reimbursement for 
certain kinship placements. And under legislation enacted in 
the last Congress, States are now allowed to get Federal 
incentives for increases in kinship placements.
    In other words, Congress has strongly signaled to States 
that kinship placements should be a priority, but I have to 
say, challenges still remain. Today we will hear about these 
barriers to kinship placement and suggestions to make these 
placements more prevalent.
    I know that Senator Wyden is planning to introduce 
legislation which would allow Federal funds to be used for 
services to help families stay safely together. I look forward 
to working with him and any other members of the committee on 
legislation that would reduce the reliance on foster care group 
homes and allow States to use their Federal foster care dollars 
for these prevention services.
    I hope to have a committee markup of this legislation in 
the fall. This hearing is part of a bipartisan process to 
improve outcomes for vulnerable children and families, and I 
hope that members will listen carefully to the testimony and 
policy recommendations presented here today.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. Let me now turn to Senator Wyden for his 
opening remarks.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. In the 
beginning, I want to take note of the fact that you, Mr. 
Chairman, have spent decades, literally decades, keeping child 
welfare issues bipartisan here in the U.S. Senate, and I 
commend you for that. I look forward to building on that 
partnership. I know Becky Shipp is here. She has carried the 
torch for many years as well, and I think once again the 
Finance Committee can work in a bipartisan way on this issue.
    Mr. Chairman and colleagues, this morning in America, there 
is likely to be a single mom with two kids, multiple part-time 
jobs, and one really big worry. She works long hours to provide 
for her family, but even then, it is a struggle to pay the 
bills and keep food on the table. And because her work schedule 
changes week to week, she is forced to leave her children 
unattended at times. A neighbor might place a concerned call to 
Child Protective Services. Once that happens, social workers 
have to choose between two not very good options: breaking up 
the family, or doing nothing at all to help. And that has to 
change.
    Whenever you ask anyone who has been through the child 
welfare system about what could help them the most, the answer 
is often, and I quote here, ``helping my mom . . . helping my 
dad 
. . . helping my family.'' But that is just not in the cards 
when social workers have nothing to offer but foster care.
    Today kids predominantly wind up in foster care because 
their families, like that single mom, are caught in these 
enormously desperate circumstances that lead to neglect. Most 
youngsters in foster care are not there because of physical or 
sexual abuse. Maybe mom or dad needs help covering bills for a 
month, substance abuse treatment, or connections for child 
care. Oftentimes, a youngster's aunt, uncle, or grandparents 
could step up, especially if they had just a little bit of 
assistance. In my judgment, every single one of those avenues 
ought to be explored before breaking the family apart. In fact, 
it might save resources in the long run without compromising on 
safety.
    Back in the mid-1990s, there was a big debate about what we 
are going to talk about this morning. A gentleman by the name 
of Newt Gingrich said that the answer here was to put the kids 
in orphanages. I remembered hearing that, and I remembered from 
my Gray Panther days that a lot of the seniors and a lot of the 
churches they went to had been talking about how a grandparent 
might be able to step in for a short period of time when their 
child, the parent, the second generation in effect, was having 
a little problem: they were out of work for a while, they had a 
substance abuse problem. And I learned then that older people--
grandparents, aunts, uncles--were an enormous untapped 
potential of kin that could make a big difference in terms of 
how we assist these troubled youngsters.
    So back then, in the 1990s, I authored the Kinship Care 
Act, which said that immediate relatives--aunts and uncles or 
grandparents--who met the necessary standards for caring for a 
child would have the first preference under law when it came to 
caring for a niece or nephew or grandchild. And it, in effect, 
was the first Federal law that had been enacted to promote 
kinship care.
    So here we are in 2015, and I think we have an opportunity, 
as Chairman Hatch just suggested, for going even further to 
help these youngsters thrive with kin. It begins with letting 
the States run with fresh policies that will support families 
when they have fallen on hard times. There is already proof 
that waiving States out of the old-fashioned Federal system can 
produce results.
    My home State of Oregon has a program--and I am very 
pleased that Chuck Nyby is here. We call it ``Differential 
Response,'' because it basically is all about signaling that 
every child and every family may require a different type of 
support. The old two-option system, basically saying it is 
either foster care or nothing, does not cut it. And what Mr. 
Nyby is going to talk about is how Oregon has taken a more 
tailored approach to help the families out. The Finance 
Committee is lucky to have Chuck Nyby from the Oregon 
Department of Human Services, and I think my colleagues are 
going to be interested in where Oregon is headed.
    Strong families mean strong kids. That is the bottom line. 
And tomorrow I am going to introduce legislation that builds on 
that first bill of the 1990s on kinship care. Our new proposal 
will be called the Family Stability and Kinship Care Act, and 
the bill will make sure that more States are in a position to 
adopt fresh strategies like Oregon's. It will also provide more 
opportunities to tap that extraordinary potential that is out 
there of grandparents, aunts, uncles, and family members who 
can step in in the kinds of circumstances where otherwise a 
child may just have one of two options that they do not care 
for.
    I will close simply by saying I want to make it clear that 
this is in no way a condemnation of foster care. The fact is, 
we know kids for whom foster care has been a lifesaver, kids 
for whom foster care was a safe place where they could grow up 
and thrive. What this is all about is creating as many good 
choices as we possibly can for youngsters to grow in a safe, 
healthy environment. That means keeping families together.
    And I will close by way of saying that, as I said at the 
outset, Chairman Hatch has put in decades--decades--trying to 
steer this child welfare debate in a bipartisan way. I commend 
him for it, and I want the chairman and colleagues on both 
sides of the aisle to know I think we have an opportunity to 
rise to the occasion again, and I look forward to working with 
the chairman and all of you on it.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Well, thank you, Senator Wyden.
    Let me introduce our panel of witnesses today.
    First, we are going to hear from Sandra Killett, a well-
respected parent advocate in New York City. Ms. Killett is a 
single mother who has raised two sons who are now 22 and 20 
years of age. As we will hear, she experienced firsthand 
problems in our foster care system when her eldest son was 
removed from the home for 1\1/2\ years due to behavioral 
issues. After much perseverance, she was able to be reunited 
with her son, who is now pursuing a degree in architecture at 
the New York City College of Technology. Ms. Killett currently 
serves as the executive director of the Child Welfare 
Organizing Project.
    Next we will hear from Rosalina Burton, a former foster 
youth from San Diego, CA. Ms. Burton lived through 23 different 
placements and numerous school changes during her 12 years in 
foster care. Now just 23 years old, Ms. Burton enjoys working 
as a mental health worker at San Pasqual Academy, a residential 
facility for foster youth in San Diego County. She is also 
currently attending Palomar Community College where she will 
obtain her bachelor's degree and continue on to work towards a 
master's in social work and policy.
    We will next hear from Donna Butts, who served for over 17 
years as the executive director at Generations United before 
taking the helm at Generations United. Ms. Butts served as the 
executive director for the National Organization on Adolescent 
Pregnancy, Parenting, and Prevention. She received her 
undergraduate degree from Marylhurst College and later 
graduated from Stanford University's executive program for 
nonprofit leaders. She is a recipient of the Jack Ossofsky and 
Seabury leadership awards. She has also been recognized twice 
by The NonProfit Times as one of the top 50 most powerful and 
influential nonprofit executives in the Nation.
    I would now like to give Senator Wyden a chance to 
introduce our third witness, Chuck Nyby, who is representing 
the great State of Oregon. Senator Wyden?
    Senator Wyden. Mr. Chairman, thank you. Mr. Nyby--and I 
touched on his extremely important work on Differential 
Response and trying to make sure there was not a one-size-fits-
all approach for helping these youngsters, and he has been 
doing it for the Oregon Department of Human Services for the 
past 13 years. He has gone from caseworker to supervisor, and 
now I think it would be fair to say Chuck Nyby is the guy who 
implements this fresh strategy that people are looking to. 
Prior to his work with the Department of Human Services, he 
worked for the Youth Authority. He is a graduate of Eastern 
Oregon University.
    And, Mr. Chairman--I will not filibuster here--but we have 
three Oregon connections on the panel, not only Chuck but Ms. 
Donna Butts, whom we just mentioned. And I guess I am showing 
my age, but I remember Jack Ossofsky and his good work. Ms. 
Butts has roots in Oregon. And Ms. Rosalina Burton is a 
transplant to Oregon for the summer. So we kind of run the 
table at the end of the dais over there. [Laughter.]
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Last, but certainly not least, I am pleased to note that we 
will hear from Ann Silverberg Williamson, Executive Director of 
my State's--Utah--Department of Human Services. Ms. Williamson 
graduated from Wofford College in South Carolina with a 
bachelor's degree in theology. She then went on to complete a 
master's in social work from Louisiana State University and has 
gone on to receive distinguished alumna awards from both 
schools.
    In October 2013, Ms. Williamson was appointed to her 
current position after serving as president and CEO of the 
Louisiana Association of Nonprofit Organizations and Cabinet 
Secretary for Louisiana's Department of Social Services.
    In less than 2 years in her position in Utah, Ms. 
Williamson has overseen the State's successful efforts to 
obtain a Federal title IV-E waiver and the launching of a child 
welfare demonstration project, HomeWorks, which aims to reduce 
the use of foster care, recurrences of child abuse and neglect, 
and the need for social services intervention.
    I welcome each of our witnesses to the committee here 
today, and, as we proceed to opening statements, I urge you to 
keep your remarks to the allotted 5 minutes if you can.
    So we will start with you then, Ms. Killett.

         STATEMENT OF SANDRA KILLETT, PARENT ADVOCATE, 
                          NEW YORK, NY

    Ms. Killett. Good morning. Thank you, Chairman Hatch, 
Ranking Member Wyden, and members of the committee, for the 
invitation to be here today. My name is Sandra Killett. I am a 
divorced single mother who raised two sons, who are now 22 and 
20 years of age. I reside in New York City, and I am currently 
employed as the executive director of the Child Welfare 
Organizing Project. This is a self-help advocacy organization 
of parents who have been affected by New York City Children's 
Services.
    Today I am here to share insights gained from my own 
experience as a parent impacted by the child protection system, 
as well as the perspective of hundreds of parents whom I have 
worked with and other organizations, including the New York 
City Coalition for Child Welfare Finance Reform, Birth Parent 
National Network, and some other parent organizations. Some of 
these parents are here with me this morning. I will tell you 
that they did not have the luxury that I had, and that was to 
come here last night. They got on a bus at 3:45 a.m. to be here 
on time for this hearing, so I would like to say ``thank you'' 
to all of those parents who have taken the journey with me.
    I would also like to say that I am here on behalf of 
numerous hundreds of parents across the jurisdiction pertaining 
to child protection. And we would like to call it and see it be 
a child welfare system in true reality.
    I am a parent who has been affected by the child protection 
system, again, I say. It has forever changed my life as well as 
my sons' lives. This is a system, as you have already heard in 
the opening statements, that has really for me destroyed a 
stable family, forever left our family traumatized from this 
experience.
    As a single mother, I relocated to New York City from 
Atlanta, GA with my two boys. They were young, and we relocated 
to New York due to financial hardship. All of my family 
supports were in New York City. It was difficult for my two 
boys. They left their dad, but their dad traveled back and 
forth to New York City from Atlanta to be there for them.
    My oldest son is the one who generated the contact with New 
York City Children's Services. His name is Tre. He found it 
most difficult. He was raised with his dad, and, of course, as 
you can imagine, it was a disruption in the family.
    I sought help and support for my family challenges. My son 
was attending family counseling, and we were getting some 
supports that we needed. But I can tell you that the move to 
New York City and the separation from his father was difficult 
and it was challenging, thereby generating some aggressive 
behaviors from my son which I continuously sought help with.
    I began to ask every week about individual services for my 
son. I was told that those services were not available 
immediately; we were on a wait list. We stayed on the wait 
list. Before we could actually get off of that wait list, there 
was an altercation that occurred between me and my son. He was 
at the age of 13. Before that altercation actually occurred, I 
will tell you that the outbursts that were occurring in my 
household had me retreating to my bedroom with my youngest son 
in fear of what would happen. Did I know what would happen? 
Absolutely not. But pushing forward, an altercation did occur.
    At the time of this incident, I did reach out to New York 
City Children's Services for assistance. I did not receive the 
assistance. Instead, I received an investigation into my 
household, and that investigation was very intrusive, and I 
absolutely say an ``investigation'' because that is what it 
was. My family was asked questions that I thought were not 
necessary. My sons were asked questions about how I parented 
them, whether or not I disciplined them, and how I disciplined 
them.
    I will tell you that I found this out later from my sons 
when they told me this. I was surprised that Children's 
Services was not interested in what actually occurred or how I 
had come into their office for assistance.
    So I know that time is moving forward for me. What I would 
like to do is highlight for you three recommendations on how to 
improve services for families at risk and/or already involved 
with the child protection system.
    Child welfare funding needs to be realigned to support a 
broad array of community-based prevention and early 
intervention services to strengthen families and keep families 
together. Promoting a supportive, non-punitive approach can 
help families at risk keep their children at home. Partnering 
with parents to work and support other families before and 
during any involvement with the child protection system and/or 
the courts can help families stay strong and safe and quickly 
reunify. I believe that most parents want to be good parents 
but may need some help and assistance along the way.
    In conclusion, I ask you to take action to make all 
children at risk protected and help their families and 
communities build protective factors to ensure that their 
children grow up in a healthy and safe, nurturing home.
    Thank you for allowing me to share my experience and the 
voices of many parents who have come in contact with the system 
whom I bring into this space with me this morning at this very 
historic, I believe for me, time. I think that, unless you 
really know what it is like to be separated from your family, 
your children, and that bond forever broken between not only 
mother and child but between siblings, between extended family, 
having a grandparent not be able to see their grandchild 
because they have not been cleared by the system, having an 
aunt or an uncle not be able to visit or have an overnight stay 
with their niece or nephew, not being able to give input into 
the growth and development of your son or child, you cannot 
know what an enormous--enormous--traumatic experience it is for 
every single family that has gone through it.
    I will tell you that, although we have come through it--and 
I believe that we are coming through it--there are good days, 
there are bad days, but I will tell you, I still hear families 
today, every day, based on the work that I do in the 
organization, that talk about the horrendous experience that 
they had with a foster care system that does not understand who 
they are as a family, does not understand where they come from 
in a community, and does not understand the burden that is 
brought upon them to do things that no other parents or 
household would have to do in order to reunify with their 
children. And I say to you that parental rights are often 
terminated at a point as though they are water running from a 
faucet; that is how often that is happening, where parents are 
actually losing the rights to their children.
    So I implore you to really hear us, listen to us, and I say 
that--you actually have been listening, but I think that there 
has to be an action, and the mind-set of what we feel, how we 
feel about families that we come in contact with that might be 
in crisis, should be seen differently.
    And I would like to say--I know I have some time 
remaining--but I think that I have done justice here, and I 
thank you so much for inviting me and hearing me. And I hope 
that this testimony does something for us to have a child 
welfare system that truly will impact families and children, 
help them to be strong and safe and nurtured in their own 
communities.
    Thank you so very much.
    The Chairman. Well, thank you, Ms. Killett.
    [The prepared statement of Ms. Killett appears in the 
appendix.]
    The Chairman. We will turn to you now, Ms. Burton.

 STATEMENT OF ROSALINA BURTON, FORMER FOSTER YOUTH, ESCONDIDO, 
                               CA

    Ms. Burton. Thank you. Chairman Hatch, Ranking Member 
Wyden, and members of the Senate Committee on Finance, thank 
you for inviting me to share my story and talk about some of 
the issues that I know affect many young people in the foster 
care system.
    My name is Rosalina Harmony Burton. I am 23 years old, a 
current intern with FosterClub, and a mental health worker at 
San Pasqual Academy, a residential facility for youth in 
Escondido, CA.
    Before I worked at San Pasqual Academy, however, I was one 
of their clients for 14 months. I spent most of my childhood in 
the San Diego County foster care system. I was in and out of 
foster care, experiencing 12 years of care in more than 23 
different placements. I eventually aged out of congregate care, 
and I am still hoping to find my forever family.
    My most memorable placement was in kinship care with my 
great aunt, with whom I lived a year and half. At this time, I 
was 3 years old, and my mother was pregnant with her eighth and 
final child. I was her fourth.
    My six siblings and I had been removed from my parents' 
care for the first time after my mother went away to receive 
treatment for addiction and my father was reported for neglect. 
My siblings and I were taken to an emergency shelter. Then one 
of my sisters and I were soon placed with my paternal great 
aunt.
    My great aunt was a prepared woman, and living with her 
gave me a sense of stability, love, and normalcy that I 
unfortunately never experienced again. Eventually, all of my 
siblings and I were reunified with my parents who relapsed on 
drugs shortly after.
    Over the next several years, my siblings and I would 
reenter care several times after multiple failed reunifications 
with our parents. At some point, my siblings began to have 
different cases and different social workers. Things got really 
confusing. We no longer went to the same court dates or had the 
same permanency plans. At no point during any of my reentries 
into foster care was kinship care brought up as an option 
again.
    I come from a big family. I am one of eight, and we are 
part of an even bigger extended family. My father is one of 
nine. While living with my great aunt, I saw my siblings and 
parents regularly. I felt close to them and desired their 
presence in my life. Later, after we were scattered throughout 
foster care and group homes, my close-knit sibling group became 
strangers to each other. Before entering care, my siblings and 
I took care of each other because we had to. But once our 
environment changed, bonding became optional, and that history 
became obsolete. By the time I was 13, I often worried that if 
one of my siblings were to pass, I would not have anything to 
say at their funeral because I did not even know who they were 
anymore.
    I can view the multiple reunifications as proof that my 
parents wanted to be a part of my life. My reentries into 
foster care are also proof that they did not know how to keep 
me safe and care for me and my siblings effectively. Entering 
foster care is a traumatic experience for all parties involved. 
My father felt invaded, because he was raised in a family where 
what happens in the home stays in the home. My mother felt 
revictimized, haunted by her own experience in foster care as a 
child. Her own struggles with abandonment, broken family ties, 
and abuse, along with a lack of addiction and mental health 
services, led to my multiple reentries into care. For many 
years, my mother struggled to get and stay clean. Her battle 
with mental illness and her inability to financially support 
eight kids, along with her dependence on an abusive man, made 
it particularly impossible to take care of us.
    My life became a vicious cycle of neglect and instability. 
Eventually, my parents' rights were terminated when I was 15 
years old. By the time my mother had finally figured out how 
she could maintain a house, her sobriety, and work on her 
mental illness so that her children were returned, the damage 
was done. I was no longer the kid who just wanted to be home 
with her mom and dad. I was a budding teenager suffering with 
depression and anger.
    Mandatory individual and family counseling before and 
during reunification, along with financial assistance, could 
have played a huge role in a successful reunification. Such 
therapy, combined with the substance abuse treatment my mother 
received, could have helped her identify childhood traumas that 
affected her parenting and substance abuse.
    I also imagine that had my mother received preventative and 
ongoing services from professionals who understood mental 
illness and saw her as a victim and not a drug addict, my 
siblings and I might not have needed to spend so much of our 
childhood in foster care. We need to provide support for 
preventative services, such as intensive counseling and 
financial assistance that help kids stay with their families, 
and continue to support these same services after 
reunification.
    Children, youth, and their parents need help understanding 
and processing the damage time away from each other can have on 
relationships once they are reunified. We should support 
kinship placements for children who need to be removed from 
their homes so they can stay connected to their families.
    Today I work at an amazing group home, but I recognize 
that, as hard as they try, group homes will never be able to 
give youth all the things that a loving family can--not at 
graduation, not during your first pregnancy, and definitely not 
at your 30th birthday. Group homes are temporary. Families 
should be forever.
    Thank you.
    The Chairman. Well, thank you.
    [The prepared statement of Ms. Burton appears in the 
appendix.]
    The Chairman. Ms. Butts, we will take your testimony.

   STATEMENT OF DONNA BUTTS, EXECUTIVE DIRECTOR, GENERATIONS 
                     UNITED, WASHINGTON, DC

    Ms. Butts. Good morning. I am Donna Butts, and on behalf of 
Generations United, home of the National Center on 
Grandfamilies, I am pleased to provide testimony, and I applaud 
Chairman Hatch, Ranking Member Wyden, and the committee members 
for your leadership in holding this hearing on preserving 
families and reducing the need for foster care.
    Every child deserves to grow up in a safe, stable, and 
loving home. For about 7.8 million children, that family is 
headed by kin--a grandparent, aunt, uncle, or close family 
friend. The issues facing these families are varied and 
complex. They are, however, united by one common factor: they 
believe beyond a shadow of a doubt in the importance of family. 
They believe children fare better when they are raised in a 
family, not a system, and they are right.
    Despite the challenges facing grandfamilies, children fare 
well in the care of relatives. Compared to children in non-
relative care, they have more stability and are more likely to 
report feeling loved. Federal law affirms and research confirms 
that relatives should be the first placement choice.
    Kinship families are diverse, but the degree to which they 
receive needed supports and services is tied largely to the way 
the children come into relative care. Children outside the 
foster care system receive little to no services and benefits 
compared to children in the formal system. Congress should act 
to ensure that all children in relative care receive the 
support they need to thrive regardless of the circumstances 
that brought them to live with a caring relative.
    Over a quarter of the foster care system already relies on 
relatives. Congress has enacted several provisions to ensure 
and increase relative placements and provide waivers which 
allow the use of Federal dollars to support grandfamilies and 
promote prevention. We salute these and encourage efforts to 
further strengthen these and better support kinship families.
    Today I will focus on four areas which are discussed in 
much more detail in my written statement. I am going to focus 
on: notice to relatives, licensing, prevention, and trauma-
informed supports.
    First, notification. We recommend changes to help ensure 
that relatives receive notification with clear information and 
assistance so they can digest their options and make the best 
decisions for children. Recent law requires States to identify 
and notify relatives when a child is removed from home. They 
are to be told their options under the law, including any 
options that may be lost if they fail to respond to the notice. 
Anecdotally, we hear that caregivers know very little about 
this requirement, and for those who do, many say it was 
presented in a confusing and even threatening way.
    Second, licensing. We recommend that Congress direct States 
to assess and make any necessary changes to their existing 
licensing standards using the new model family foster care 
standards from the National Association for Regulatory 
Administration. Until now, there have been no national family 
foster home licensing standards, so they vary dramatically from 
State to State and often pose unnecessary barriers. This 
results in appropriate relatives denied licensure, causing 
children to be placed unnecessarily in group settings or foster 
homes.
    For example, JJ and his two brothers and little sister went 
to live with their grandparents when his father's drinking got 
out of control. His grandparents wanted to provide a safe and 
loving home for them, but they struggled against the clock to 
make the required changes to their home so they could meet 
State requirements and be able to continue as a stable, unified 
family. JJ's grandparents had to file for bankruptcy because of 
the cost to make their home comply with foster care standards. 
It was a home filled with love, but not enough bedrooms.
    Third, prevention. We recommend support to identify and 
evaluate promising practices. For every one child in foster 
care with a relative, there are about 23 outside the system 
being raised by a relative or close family friend without a 
parent present. These families save taxpayers more than $4 
billion each year by preventing children from entering foster 
care. Under current child welfare financing laws, these 
families receive little or no preventative or supportive 
services to keep them together and out of foster care.
    Fourth, trauma-informed supports. Generations United 
recommends urging States to ensure that kinship families have 
access to the same level of therapeutic services as non-
relatives. Many grandfamilies report emotional rewards that 
come from caring for the children. They also often experience 
challenges. These can be even more daunting when caring for 
kids who have experienced trauma, which often leads to complex 
mental health and behavioral issues. Therapeutic foster care 
provides residential-level services for children and youth in a 
family setting with specially trained caregivers. Too many 
kinship families are not offered these supports and are left to 
manage serious mental health needs on their own.
    Flexible funding sources are also needed to fill the 
service gaps for kinship families outside the system. The 
important role of Federal funding streams like TANF and social 
services block grants in supporting children in relative care 
must be recognized.
    Poet Maya Angelou, raised in part by her grandmother, said, 
``Today, people are so disconnected that they feel they are 
blades of grass, but when they know who their grandparents and 
great-grandparents were, they become trees, they have roots, 
they can no longer be mowed down.'' All of America's children 
deserve a way back home, a way to remain with the roots--the 
families--that grow our country's strong, productive, and 
contributing citizens.
    Thank you for this opportunity to offer testimony, and I 
look forward to answering any questions. Thank you.
    The Chairman. Well, thank you so much.
    [The prepared statement of Ms. Butts appears in the 
appendix.]
    The Chairman. Mr. Nyby, we will turn to you.

  STATEMENT OF CHARLES NYBY, DIFFERENTIAL RESPONSE AND SAFETY 
             OPERATIONS AND POLICY ANALYST, CHILD 
WELFARE PROGRAM, OREGON DEPARTMENT OF HUMAN SERVICES, SALEM, OR

    Mr. Nyby. Thank you. First of all, let me just express my 
appreciation to Chairman Hatch, Ranking Member Wyden, and the 
committee for the opportunity to be here to speak in front of 
you today.
    I just really planned to talk about my experience in 13 
years working in the child welfare system: where I have been, 
what I have experienced, where we are today, and where we are 
going.
    When I started working for Child Welfare right out of 
college, I was absolutely not prepared for the challenges of 
the work. And when you listen to the testimony previously 
provided, part of what I found my job included was, not just 
learning rules and procedures, but how to overcome the 
perception of the system with the families, with kids in the 
community that I worked in. And I had a variety of experiences 
with the foster care system and the systems around kids in 
foster care.
    Early in my career, it seemed like we used foster care as a 
solution for kids when they were not safe in their home. And 
what I observed is that it often felt like a consequence. And I 
was really naive. I thought that when kids were experiencing 
abuse and neglect in their home, they would want to leave, and 
I thought they would not want to go back until things had 
changed. But what I found is that kids would run away from 
foster care. They would live on the streets. They would go back 
to homes where they came from because they preferred that. And 
it was a huge learning experience for me as a caseworker to 
understand the impact that foster care had on kids, even when 
they were experiencing abuse or neglect at home. And I started 
to question the work I was doing.
    So in 2007, Oregon adopted a safety model which promoted 
the least intrusive intervention, using foster care as a last 
resort. But despite my personal excitement, changing any system 
can be slow, and I found it has been a slow process in Oregon 
since that time, and I have experienced this inside and outside 
of the child welfare system.
    That same year, I became a supervisor, and I supervised the 
Child Protective Service Unit for the next 5\1/2\ years. That 
was a really challenging job. Workers work late hours. They 
work in the evenings. They work on weekends. And as a 
supervisor, I had to be available to them. And one of my 
biggest challenges was trying to help them make decisions for 
work that I was not doing. And what I found to be a common 
challenge in those decisions was fear, and fear that something 
bad would happen to a child, fear that we would intervene and 
take a child into care when we did not need to, fear of ending 
up on the front page of the paper or even losing our jobs. And 
that fear is real, and I witnessed this. I supervised cases 
that were high-profile cases, and it was extremely challenging 
in the field not to let 1 to 2 percent of the cases that we see 
affect our work with all the families that we interacted with.
    During my time as a supervisor, I saw services start to 
come into place. There were more up-front services available to 
families. We were able to start working with families and keep 
kids safe at home. But there were gaps in those services, and 
without filling those gaps, the challenge remains for Child 
Welfare to work with families in a way that keeps kids safe at 
home if families are not getting the support that they truly 
need.
    In 2013, I took a job as an operation and policy analyst in 
Oregon to help implement Differential Response, and I have been 
doing that since that time. And in our State, Differential 
Response is supported by legislative services that are focused 
on ``strengthening, preserving, and reunifying family 
services.'' And I can say that in the past 2 years, I have felt 
more energized about and excited about the work I am doing than 
ever before.
    The practice model now comes with a service array providing 
flexibility to help families in a way that we have never had, 
and foster care is slowly becoming what it was intended to be, 
which is a safety service that we use as a last resort.
    But change takes time. I think we are making progress. But 
it is my opinion that, in order to continue that progress with 
child welfare reform, changes need to be made in the way the 
child welfare systems are funded.
    Just like families, systems need flexibility, and Oregon 
has had a title IV-E waiver for a number of years. It allows 
the State to spend Federal foster care dollars more flexibly. 
Any waiver savings are matched and used to finance the expanded 
service array. And it has allowed Oregon to increase services 
in communities as well as increase the array of services 
available for families. I understand that it is set to expire 
in 2019, and I worry that without a legislative change, our 
ability to invest in these front-end services will be reduced, 
and funding Child Welfare primarily through foster care 
placement does not support families in the way that the system 
ought to.
    I just want to close by saying my journey as a caseworker 
and as a supervisor, I would not trade that for anything in the 
world. Working at that level has helped me understand the 
challenges that families and children who interact with the 
child welfare system face in our community. It has trained me 
to help families, caseworkers, and supervisors see solutions 
and see possibilities, look at things differently. And I 
understand that working for Child Welfare will always be a 
challenging job. There will always be stigma involved in the 
system, but it comes with great reward when we can be 
successful.
    So I just want to thank everyone for the opportunity to 
speak here today.
    The Chairman. Well, thank you very much.
    [The prepared statement of Mr. Nyby appears in the 
appendix.
    The Chairman. Ms. Williamson, we will finish with you.

  STATEMENT OF ANN SILVERBERG WILLIAMSON, EXECUTIVE DIRECTOR, 
     UTAH DEPARTMENT OF HUMAN SERVICES, SALT LAKE CITY, UT

    Ms. Williamson. Chairman Hatch, Ranking Member Wyden, and 
members of the Senate Finance Committee, thank you for the 
opportunity to appear before you representing the Utah 
Department of Human Services. In Utah, we value not only what 
is in the best interest of children, youth, and their families, 
but also what is cost-effective. Several facts about Utah's 
child welfare model illustrate the strengths of our approach.
    With one of the Nation's highest percentages of minors per 
capita, Utah has one of the lowest entry rates into the foster 
care system: 3.1 children for every 1,000. The national average 
is 6.1.
    The average length of stay for a child in foster care is 
10.4 months, and the national average is 13.4 months.
    Following changes that allowed Utah to successfully exit a 
settlement agreement, our system was touted for its 
effectiveness. We incorporated family team meetings, had 
rigorous qualitative case and process reviews, and established 
an independent Ombudsman's office and a Fatality Review Panel.
    In recent years, we identified the need to build equally 
effective in-home supports to safely keep children with their 
families, reducing the need for foster care.
    Regardless how well a foster care system operates, the fact 
remains that children are best served in homes, with families, 
familiar schools, and community. The voice of one brave young 
woman who aged out of the foster care system prior to our 
recent changes underscores the opportunity we have to do 
better.
    As a young child, Beth was removed from her mother's care 
for the neglect that resulted from her mom's untreated mental 
illness. Instead of remaining in her home with parenting and 
behavioral supports, this child was swept into a perilous 
journey between multiple foster homes, the juvenile justice 
system, truancy, and homelessness.
    When asked why she continued to run away from foster homes, 
Beth plainly said it was to get back to her mother. When asked 
why she behaved so poorly, she expressed feeling out of control 
and without a voice. Fortunately, the positive influence of her 
final foster father and caseworker's influence resulted in Beth 
graduating from high school, getting a job with Child Welfare 
after college, and enrolling in law school. Hers was a rare 
success story in that era. Her insights are profound and 
motivating to us today, because we know we can do better. We 
can avoid this kind of human and financial cost, and as the 
measured results of our current practice prove, we are doing 
so.
    Poet Maya Angelou's words concisely describe Utah's 
commitment to serve: ``Do the best you can until you know 
better. Then when you know better, do better.''
    With research, social science discoveries, and evidence of 
trauma-informed care, Utah believes we can better serve the 
short- and long-term interests of those in need of child 
welfare. Supporting safe care for children in their homes 
without separating them from their family in foster care is 
less traumatic and less costly. Additionally, a multi-
generation approach proves to be more effective in breaking 
cycles of dependence on prolonged, expensive government 
programs.
    The opportunity to apply for a title IV-E waiver was ideal 
for Utah. Our demonstration project called HomeWorks was 
implemented in late 2013 and is being replicated State-wide 
through this year.
    We are able to invest Federal funds towards supports that 
have much greater value, not only to keeping children safe with 
their family but also to the taxpayers receiving a greater 
return on the dollar.
    For the average cost of serving one child in a foster care 
home for 1 year, we can serve 11 families through HomeWorks. 
And for the average cost of serving one child in a group 
congregate setting for 1 year, we can serve 34 families through 
HomeWorks. These are compelling proofs of the sound business of 
this practice, while the humanitarian merits of investing to 
keep children safe with family make this approach essential.
    We worked recently with the family of Jim, who was on track 
to enter foster care. He was failing in middle school and had 
exhibited repeated aggression toward his parents, with 
behavioral outbursts. Applying the HomeWorks model has 
preserved him safely in his home and offered peer parenting. 
Additional extended family are engaged, and his school 
counselor and behavior therapist are working to support Jim.
    This is one of the more than 1,000 families we have served 
through HomeWorks. That waiver has allowed us not only to 
assist an individual family, but to work with multiple families 
for long-term behavioral change that reduces the risk of repeat 
maltreatment and ongoing involvement with government 
interventions.
    Evidence-based tools include structured decisionmaking, 
caseworker training, consistent assessment, and more staff time 
with families as well as community supports. Early results are 
positive.
    We respect the temporary nature of the waiver and the time-
limited opportunity we have to learn from the State's practice. 
Utah is focused on shoring up what we have begun. Therefore, 
thank you, Senator Wyden. The Family Stability and Kinship Care 
Act proposed is an encouraging measure.
    We would like to see financial investment in child welfare 
practice informed by evidence. The key components of the 
proposed bill reinforce Utah's experience. Federal statute that 
emphasizes early intervention, family development, and local 
partnerships that cultivate community ownership for a child's 
well-being will strengthen this country's child welfare system 
and benefit our citizenry in total.
    We seek to partner with you to finance a system that 
strengthens families and is accountable for the outcomes of 
sustained child safety, well-being, and permanency. We look 
forward to the alignment of child welfare policy, finance, and 
practice for the greater public good.
    Thank you.
    [The prepared statement of Ms. Williamson appears in the 
appendix.]
    The Chairman. Well, thank you. We appreciate it. This has 
been a very excellent panel here today.
    Let me start with you, Ms. Burton. Thank you for appearing 
before the committee today and for your extraordinarily 
compelling testimony here. You are a remarkable young woman, 
and I am very impressed with all that you have been able to 
overcome. And I am so sorry that the foster care system so 
obviously failed you and your brothers and sisters.
    Now, you were in the foster care system on and off for 12 
years, as I understand it. Is that correct?
    Ms. Burton. I spent a total of 12 years between my 
reunifications and care.
    The Chairman. My question to you is, what are your 
suggestions for congressional action that could improve the 
foster care system?
    Ms. Burton. I think it should be required that States have 
a plan for a child right away. So, if they believe that the 
situation can be mitigated, they should do that, provide the 
services before they enter care if possible or as soon as 
possible when the child enters care so they can return home in 
a short period of time. Kids are spending too much time in 
limbo, and then damage is created that affects the whole family 
so that, when they do reunify, it is not a successful 
reunification.
    The Chairman. Well, thank you.
    Ms. Burton. Does that answer your question?
    The Chairman. That does. That will be fine.
    Ms. Williamson, I want to thank you for appearing before 
the committee today and for your testimony. I would like to 
take this opportunity to acknowledge the great work done by two 
extraordinary members of your team: Brent Platt and Cosette 
Mills.
    Ms. Williamson. Absolutely. Thank you.
    The Chairman. My staff have worked with them and you for 
many years, and we are deeply indebted to each of you for your 
expertise, professionalism, and willingness to engage.
    Now, I was pleased to have been one of the authors of the 
legislation to allow up to 30 States to receive a child welfare 
waiver, and as you testified, Utah was one of the very first 
States to apply for a child welfare waiver. As you know, all 
child welfare waivers expire in 2019, and I believe that we 
should build on what we have already learned through State 
innovation relative to these waivers to craft policies that can 
benefit all States.
    You have testified that because Utah is able to use certain 
Federal dollars to provide front-end services, Utah is able to 
realize considerable savings. Would you elaborate on how Utah 
is able to target resources in order to achieve these savings?
    Ms. Williamson. Thank you so much, Senator. It would be my 
pleasure.
    Indeed, what Utah recognized was that the expense that was 
costing taxpayers of Utah was for poor outcomes for youth--
namely, long stays, extended stays, in the foster care system, 
and too often in the deepest end of the foster care system, 
with residential congregate care. As mentioned, it only costs 
about, on average, $2,400 to keep a family stable and together 
in the home for a year--$2,400 to serve a family, keep children 
safe, and facilitate long-term behavioral change; whereas, the 
average cost per year for one child in a congregate care 
facility is over $83,000.
    So the financial logic of focusing our services and our 
efforts on early in-home intervention services has naturally 
allowed us to then have these dollars go farther because we 
have reduced our reliance on long-term intensive congregate 
care.
    The Chairman. Well, thank you. I think those are startling 
figures.
    Mr. Nyby, I want to thank you for appearing before the 
committee and for your thoughtful testimony as well. As I 
indicated in my opening statement, I believe strongly that we 
should reduce the reliance on foster care group homes. In order 
to do that, we must also improve efforts to keep children 
safely at home as well as strengthen the more family-like 
placements for children and our youth when a child cannot 
remain safely at home.
    Oregon has one of the lowest rates of children and youth 
living in foster care group homes. Can you share with the 
committee how Oregon has managed to safely reduce the reliance 
on foster care group homes?
    Mr. Nyby. Well I think, being from Oregon, one of the 
strong commitments that Oregon has made is to reduce foster 
care across the board--not just group homes but across the 
board. And I know that the way that we train our caseworkers 
and supervise them is to really use foster care as our last 
resort, to give priority to relatives. I think Senator Wyden's 
comments earlier about the priority of relatives is something 
that is well ingrained in our culture and in our practice, and 
relative placements are something that we prioritize over 
foster care or group homes. I think those are viewed as our 
last-resort options, and they are not viewed any more as 
solutions for kids.
    The Chairman. Well, thank you. My time is up.
    Senator Wyden?
    Senator Wyden. Thank you very much.
    Ms. Williamson, I do not want to make this a full bouquet-
tossing contest, but let me share Chairman Hatch's comments 
with respect to the good work that you all are doing. That is 
astounding, to be able to get the rate of return that you 
described, and I just want to be clear, particularly with your 
kind words about the legislation, the Family Stability and 
Kinship Care Act. The whole point of that is to say once and 
for all that the flexibility you are talking about is going to 
be permanent. That is the point of where we ought to go for the 
future and IV-E and our challenges. So I really appreciate the 
good work you are doing.
    Ms. Williamson. Thank you.
    Senator Wyden. Let me see if I can get a couple of points 
in. Mr. Nyby, you have, in effect, run the gauntlet in terms of 
your services in the field, and I am not sure we have given you 
a chance to say what services you think are most important, 
because that is what we are going to have to do here. We are 
going to have to find our way, given the fact that resources 
are tight, to say, all right, there are some choices to be 
made, here are the ones that are the real show stoppers, these 
are the ones that are going to make a big difference for 
families and kin. Tell me, if you would, what you think those 
services are.
    Mr. Nyby. Absolutely. Thank you. Well, I think the services 
that would help are services that would prevent or avoid 
further or more intrusive intervention from Child Welfare. What 
we see--and I do not have data or statistics to share, but I 
can tell you that drug and alcohol abuse treatment is a really 
important service. A lot of families--the systems set up to 
help them are complicated, the bureaucracies are complicated. 
They need help understanding where to go for help and how to 
get there and how to navigate a court system, how to navigate a 
transportation system--services that, you know, assist with 
general challenges around poverty and housing, child care.
    In Oregon, one of the primary services that we have through 
the strengthening, preserving, and reunifying families 
services, as we call them, is ``navigators,'' parent advocates 
who help parents navigate the system. It is a very complex 
system, and they sometimes have to navigate it multiple times.
    We know that domestic violence is a challenge, and so we 
also advocate for people--women, primarily, who are 
experiencing domestic violence. I think those are some that I 
can think of offhand.
    Senator Wyden. Well, you are doing a terrific job, and I 
look forward to partnering with you in the days ahead.
    Ms. Butts, let me talk to you about kinship care, because I 
look back at those debates in the 1990s, and the seniors said 
then that they thought kinship care was going to make a big 
difference. We sort of unleashed them on some skeptical 
legislators, and we were able to get the law that I described 
passed, giving, in effect, families and seniors the first 
preference.
    I think by anybody's calculation, that first kinship care 
law has far exceeded what people thought was possible, and you 
gave some numbers as well about the extraordinary role that 
kinship care plays.
    So I guess the question really becomes, if you had to name 
one big step for the future on the kinship care side, what 
would it be? Because I have sort of a set of choices. I know at 
one of our earlier hearings we heard about an older parent, 
really a grandparent, who wanted to take care of a child, and 
they were told, even though they had a wonderfully comfortable 
place to stay, because it did not have the exact number of 
bedrooms, they were completely disqualified.
    I do not know if I can turn my last set of ideas into 
getting rid of mindless bureaucracy and how you right that--and 
I see Ms. Williamson nodding as well. But let us say you get 
one choice for the next step on kinship care, which has been, 
because of your work and the work of seniors and parents 
everywhere, a great success. What is your next step?
    Ms. Butts. Thank you, Senator Wyden. We really appreciate 
the role that you played in championing older adults and 
relatives as the caregivers for children. We have been through 
those battles together and seen the change from country club 
grandmothers who were only in it for a few dollars to realizing 
that family believed deeply in family and they want to support 
those family options.
    We also know that that is one of the reasons why we believe 
that it is important to look at the licensing standards in 
States because, I do not know about you, but I grew up in a 
family of six with three bedrooms. I shared a bedroom with my 
sister my entire life. And to think that relatives cannot 
figure out how to make do with a little bit less space, with a 
little bit less, does not make any sense. We need to take that 
into consideration.
    I think that the bill that you will be introducing goes a 
long way in helping to understand that the grandparents need 
those supportive services to be successful, and I think that 
that is what you and many of us have advocated for. They need 
to know what services exist, which they can find through 
navigator programs, which have been proven to be very 
successful in the States. They need mental health services 
because of the children who come into their care who have been 
through different traumas, different situations, and they need 
that kind of support. But it is understanding that, just 
because they are family does not mean that we leave them on 
their own. We need to support them. We need to provide 
preventative services. So I think that that is the next step.
    Senator Wyden. Thanks very much for your years of good 
work, and I would just like to note, Mr. Chairman, that as we 
go forward under your leadership to work on this in a 
bipartisan way, the ideas that this panel has offered, these 
are not big, expensive kinds of proposals that they are making. 
Nobody is going to say this is going to break the bank. Nobody 
is going to say that some huge new titanic bureaucracy has to 
be built.
    So you have been a terrific panel and really, I think, teed 
it up ideally for us to go forward and do some legislating in 
this area around your ideas, and I thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    Senator Stabenow?
    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and thank you, Senator Wyden, for your efforts on kinship care. 
It is my pleasure to be co-chairing the Foster Youth Caucus 
with Senator Grassley and to work with everybody on the 
committee.
    And thank you to each of you for being here. It takes a lot 
of courage to tell your story, and I am very appreciative. I 
have actually worked on these issues a long time. I was 
thinking about it; it makes me feel old. I was back in the 
Michigan legislature and in the 1980s authored foster care 
reform that was dubbed ``the Stabenow bill'' that was put into 
law to move the system more quickly, and I am incredibly 
frustrated that we are still talking about these issues, 
because we have two sets of problems. One is what happened, Ms. 
Killett, when the system failed you, and I am sorry that that 
happened to both you and Ms. Burton. The system just plain 
failed you. And we have a situation where people get caught up 
in the system and then cannot bring their children home or kids 
cannot go home, there is not the support for that. And then by 
the same token, we have the other end, which is very serious 
abuse and neglect where kids also get caught up on both ends of 
these things.
    And so I am very concerned that, one way or the other, 
foster care be temporary and move people either back home--
ideally never leaving the home, but if they are in foster care, 
move back home or move to a permanent family, one way or the 
other, instead of being caught in limbo, Ms. Burton, like you 
were over and over again. And thank you for your eloquence.
    Mr. Chairman, I do want to say that, as we listen to all of 
this and the cost-effectiveness that Ms. Williamson talks 
about--and we know these things do not cost a lot of dollars. 
But we are about ready to go into a debate on the budget where 
there is great willingness to add monies to the Department of 
Defense. But we are not yet at a bipartisan agreement on how to 
defend our families--things that we can do that will make a 
tremendous difference. And so I hope when we go into 
discussions about appropriations, we will remember what we have 
heard here.
    Senator Blunt and I were very pleased to be able to offer a 
pilot project to address mental health and substance abuse in 
the community that will allow eight States to dramatically 
increase what they do. But it is eight States. It is not 50 
States. And it would not take a lot to make it 50 States.
    And so, I appreciate that we were able to move forward on a 
pilot, but my frustration is that there are things that we can 
do, we should do; we just have to want to do it. And I hope you 
will help us be able to want to do it.
    I do have a question for both Ms. Killett and Ms. Burton 
regarding one piece of this that I have worked on. I am pleased 
to be cosponsoring a bill with Senator Baldwin and Senator 
Portman on family-based foster care services and the whole 
question I have been working on, therapeutic foster care, what 
can be done on that front. I wonder if you might speak a little 
bit in support of therapeutic foster care and family-based 
foster care services.
    Ms. Killett. So, Senator Stabenow, I cannot say that I can 
speak directly to therapeutic foster care, but this is what I 
can speak to. What I can speak to is that if my son had 
received actual in-home intensive therapy, which I guess you 
could call ``therapeutic,'' he would not have gone into foster 
care, right? So that is the intensive therapy that would have 
been needed.
    And therapeutic care in foster homes--you would say that 
foster homes need to be thoroughly trained about the youth or 
the young person they are going to be receiving into their 
household. So they would need to know what has been going on 
with the youth, where they have come from, and how that has 
impacted them.
    And I will tell you, something as simple as removing a 
child from a home and placing them in another home has a 
dramatic impact. So they may not have had any type of issues 
other than maybe something that was going on at home, sometimes 
with the parent and sometimes not, right? But when they come 
into the system, they develop all of these behavioral issues.
    So I will have to go back and say--and I plead with you 
again. I will go back and say this: my household, that was a 
stable household. We were secure. Our protective factors were 
in place. We knew, I knew, exactly what was necessary and 
needed for my family. We did not get that, and because we did 
not get that, you, me, taxpayers, paid an enormous amount of 
money for me to go through the criminal court system, the 
family court system, an attorney, an attorney for my child, and 
remain in foster care and still end up not getting any of the 
services that we needed as a family, destroying a sibling 
relationship in which the younger brother becomes withdrawn, 
now he has to go into therapy.
    I know you asked me about therapeutic care in foster homes, 
but I can tell you that if that foster home does not get the 
very things that I needed in my home, we will be looking at the 
same thing. So essentially, across the board, families need 
what families need, and I can echo every single thing that was 
said across the board for the families that I come in contact 
with and what they share with me about what they need. We work 
with parents, foster parents, and youth. And I will say to you, 
the system is not kind to anyone.
    Senator Stabenow. Well, I appreciate that. I know my time 
is up, Mr. Chairman. I hope we will have the political will to 
do the things that all of you are talking about, because it is 
not rocket science. It is just a matter of our being committed 
to do it. So thank you.
    The Chairman. Thank you.
    Senator Bennet?
    Senator Bennet. Thank you, Chairman Hatch. I deeply 
appreciate your holding this hearing with Senator Wyden. There 
is a lot of work for us to do here. We have to find a way to 
reduce the use of congregate care settings and encourage States 
to adopt best practices to find families for our children.
    One of the key themes throughout this hearing is to invest 
in prevention. What this means for us here in Congress, I 
believe, is that we need to look comprehensively at both 
reducing the number of children in congregate care and 
investing in families to prevent children from ending up in 
foster care to begin with, and group settings as well.
    That is why I am introducing a bill today, the All Kids 
Matter Act, which will give all States the ability to invest in 
prevention efforts for families on the front end before our 
Nation's children end up in the foster care system. And for the 
400,000 children in and out of our Nation's foster care system, 
we have built in additional accountability and transparency 
measures for States to reduce the number of children in group 
homes. We know children do best, as the panel has said today, 
when placed with individual families, when placed with their 
own family.
    In the coming months, I look forward to working with the 
committee to produce a bipartisan product that will elevate the 
conversation about our Nation's most vulnerable children. So I 
am grateful for the attention that we are placing on this 
issue.
    Ms. Burton, I want to start with you. I wonder if you could 
describe for the committee the experience that you and your 
siblings had with the education system as you were going 
through this foster care system. How did you and your family do 
with schools?
    Ms. Burton. Great question. In my written statement, I go 
into a little more detail about each one of my siblings--I have 
a lot of them--but about half of us graduated from high school, 
and the other half did not. I have one brother who graduated 
from UCLA, and he is actually now a campaign manager, so he is 
doing really well for himself. [Laughter.] So if you guys need 
anybody----
    And two of us are currently in college. And education was 
really hard for me. I experienced six different elementary 
schools, five different middle schools, and five different high 
schools. But I went back to some of them a couple times. So it 
was really hard to stay focused and motivated. Thank you.
    Senator Bennet. Thank you.
    Mr. Nyby, you mentioned at the end of your testimony that 
in the last couple of years in your new role, you were able to 
discover flexibility that you have not had in the past. I 
wonder whether you could describe that in a little more detail 
for the committee. And to the extent that flexibility has 
resulted in prevention efforts with families, we would like to 
hear about that too.
    Mr. Nyby. Absolutely. Thank you. Well, the flexibility has 
come from Differential Response, and what that does is, it 
redesigns the front door of Child Welfare, so that when 
families are reported to us, we do not treat them all the same 
way. So, essentially, the more severe allegations of abuse or 
neglect are assessed in a more traditional manner, and reports 
that involve less or more moderate severity are assessed with 
the family. And it is not done to them, it is done with them. 
And we really try to partner with the family to let them drive 
the assessment.
    The other thing that it brings is, in both scenarios, we 
have the ability as Child Welfare now to provide services 
without opening a case, without formally getting involved with 
the family. So in Oregon, we call that ``early intervention.'' 
You know, the family still has to be reported to our system for 
us to provide that, but we, with the family's help, can connect 
them to the supports in their community so they do not have to 
come back to Child Welfare.
    That is fairly new, but essentially, prior to that, the 
only way Child Welfare could offer services was by opening a 
formal case in the system, and this allows us to provide those 
services and really fill the gaps without having to do that.
    Senator Bennet. Ms. Killett, it sounds like if that early 
intervention system had been in place in New York, you may not 
have faced the kinds of things that you had to contend with.
    Ms. Killett. I think you are absolutely right. I think that 
one of the things Mr. Nyby mentioned is that community-based 
resource services are really the way to go for families. So I 
should have been able to walk into any community-based program 
without having entered that door at all, having an 
investigation.
    Senator Bennet. Thank you.
    Ms. Killett. Thank you.
    Senator Bennet. Well, thank you all for your testimony, and 
thank you, Mr. Chairman, for your attention to this really 
important issue.
    The Chairman. Well, thank you, Senator Bennet.
    Senator Casey is next, and then hopefully we will go to 
Senator Portman.
    Senator Casey. Thank you, Mr. Chairman. I want to reiterate 
as well my appreciation for the hearing and for your work in 
this area over many years, and for Senator Wyden's work and, in 
particular, his legislation, the Family Stability and Kinship 
Care Act, which focuses on prevention and getting a set of 
services to families early in the process.
    I was struck by our first two witnesses, Ms. Killett and 
Ms. Burton, both using the same word at some point in their 
testimony--``traumatized'' and ``traumatic''--which I know for 
some people might seem self-evident in terms of how difficult 
these issues are for families, but there are lot of things we 
do in this committee that involve policy and data and numbers, 
but few things that we have examined here have the same kind of 
human gravity and severity to them. So we appreciate you 
bringing your own personal stories. It is not easy to do, to 
talk about what you have been through. It is easier to talk 
about things when they are theoretical and policy-oriented, so 
we are grateful that you are willing to do that, because 
without that kind of personal testimony, I am not sure we could 
sit here and really understand it unless we had gone through it 
ourselves.
    And I also want to say that, Ms. Killett, you also 
mentioned as one of the strategies you hope we would employ, or 
part of the strategy--on page 6 of your testimony in the bold 
headline--``early intervention services'' and focusing on 
meeting the ``immediate needs of families.'' And that idea of 
early intervention, we saw somewhere or another throughout the 
whole range of testimony, all the way to Ms. Williamson, and we 
are grateful that there is some measure of unanimity here on 
what the strategies must be.
    We spend a lot of time in this town focusing on national 
defense strategy, focusing on terrorists, and focusing on a 
broader national defense strategy. Even in the tax code, which 
is part of the work that this committee does, some of the 
effort is, what is the best way to change or amend or improve 
the tax code so it will be a strategy to create jobs? What we 
do not spend nearly enough time on in this city is, what are 
the strategies that will work to make the life of a child 
better? What are the strategies that will work to sustain and 
support families? And I am going to get to a question because I 
know I am just talking, but I think we do need a strategy for 
our kids and for our families.
    I guess in terms of our last two witnesses, in terms of 
practitioners who are, along with others, in the trenches kind 
of doing the policy work--and I know each of you are to a 
certain extent--maybe my one question would be for Mr. Nyby and 
Ms. Williamson. I guess for Oregon it is Differential--I am 
forgetting my terminology, but----
    Mr. Nyby. Differential Response.
    Senator Casey. Differential Response, right, and then 
HomeWorks in Utah. Tell us about what works in both and what 
you hope we would derive from those two approaches in both 
States. I know we are limited on time, but if you could just 
give brief answers.
    Ms. Williamson. If I may, thank you very much. You heard 
``consistency.'' I would highlight evidence-based assessments. 
There was a mention of evaluating risk then being very 
purposeful in structured family supports that are directly tied 
to the risk that was revealed.
    The other element I would highlight that is very consistent 
between Utah and Oregon, as Chuck mentioned, is family 
engagement, listening to the family. When children and families 
have a voice and a vested interest in their success and in the 
case plan that allows them to achieve that sustained safety and 
permanency, we will realize those outcomes much more 
efficiently and effectively.
    Senator Casey. Thanks. And I know I am over time, but----
    Mr. Nyby. Just quickly, I would just say I would echo what 
Ms. Williamson said in terms of the different parts. The only 
thing that I would add is that, in order to support and sustain 
families, you need a workforce who has the tools available to 
them to support families. To get it to work and support a 
family to engage with the system, the system has to bring and 
offer something that is tangibly and realistically going to 
help that family. And so, in addition to a practice model and 
the supports in the community--depending on what community you 
live in, that has an impact on what is available to you. So you 
have to fill those gaps in communities to help families.
    Senator Casey. Thank you. I am out of time.
    The Chairman. Thank you, Senator.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman, and thank you all 
for your great testimony this morning. This has been a 
fascinating hearing, and I thank Senator Hatch for his long-
time advocacy for kids, and specifically foster care kids who 
are facing issues at home and finding the right place for them. 
And I know this is not an easy issue, but I think one thing we 
have learned today in talking to you all is this idea of 
therapeutic foster care and therapeutic care for kinship 
parents makes a whole lot of sense. And the cost savings that 
were talked about were very interesting because there is an 
assumption out there that it is going to be a lot more 
expensive to have that kind of intensive care, not just for 
foster parents, as Ms. Killett talked about, but actually for 
kinship parents and other caregivers as well.
    I have a couple questions that I have just been thinking 
about, and since we have this extra panel here, I want to get 
your input first. I have been very fortunate--and Ms. Burton 
knows this--to have had the Congressional Coalition for 
Adoption lend us an intern this summer, and Carrie Richmond did 
a terrific job, and she, like you, has shared her experiences 
of going through the foster care system. Sadly, in her case, 
she suffered a lot of abuse in foster care and adoption. But 
she has come out of it, just an incredibly strong, resilient 
young woman. And she has helped us to kind of think through the 
policy issues.
    We also have this group back home that I assume a lot of 
States have, which is the Foster Youth Advisory Board, and it 
is actually made up of young people who have been through the 
foster care system. I think that makes a lot of sense.
    But here is the thing that has been really bugging me, and 
I want to get your input on it. There was a sting operation 
back in 2013--the FBI, nationwide--on child sex trafficking, an 
issue that I have worked on a lot. I started a caucus on it 
here; it is bipartisan. We have been doing work on this. But 
here is the amazing and very sad statistic in that: 60 percent 
of the victims whom they recovered nationwide from over 70 
cities were from foster care or group homes--60 percent of the 
kids in sex trafficking. And, you know, you think about that--
--
    Does this go to what you are talking about? I mean, not 
just the fact that in Ms. Burton's case, she has been through 
the system, in Ms. Killett's case, she has been at the other 
end of it as a mom, or the professionals here. Is there 
something that we should be talking about in this regard? In 
other words, is it less likely that those kids will end up 
being victims of sex trafficking, being vulnerable, if they are 
not in the congregate care homes, in the group homes? Maybe I 
will ask Ms. Burton to start on this, and then if you could 
respond, Ms. Butts, because I know you had some thoughts on 
that earlier.
    Ms. Burton. Thank you for that question. It is definitely a 
part of congregate care because, when you have a child in 
congregate care, there isn't someone maybe looking for the 
signs or aware of the signs. There are too many children. The 
child gets lost. Runaways are just something that happens. They 
do not really think about what is happening on the street. And 
you have a child who is maybe trying to fill a void because 
they have not received therapeutic services to learn about why 
they are feeling the way that they feel. They just want to be 
loved.
    There are so many things that we could talk in more depth 
about that go into a child ending up in sex trafficking, but I 
will let some other people talk about that, though.
    Ms. Butts. You are so right. What we say is that a child 
can age out of the system. They do not age out of a family. So 
there is somebody who stays with them, who watches, who knows 
that they are missing, and that makes all the difference in the 
world.
    It is so easy for young people to get lost and to be then 
caught up in the sex trafficking world. I used to work at 
Covenant House with runaway and homeless youth, and we always 
talked about the ``Covenant House suitcase,'' which was a 
garbage bag, and you would see a kid being homeless, being 
kicked out of their home, and all they would have is a garbage 
bag, and nobody cared where they were going.
    With a family--they are much more likely to forgive, they 
are much more likely to take them back, they are much more 
likely to let them sleep on the couch when they do not have any 
place to be. So that family, finding that family, notifying 
that family, is critically important.
    Senator Portman. Well, thank you for that response. We 
talked earlier in Senator Stabenow's questioning about this 
legislation that we have introduced. It is Senator Baldwin, 
Senator Stabenow, and myself, and it is called the Family-Based 
Foster Care Services Act, and one of the things that we are 
trying to do here is to create a standard, a national standard, 
for what is therapeutic foster care, because our sense is that, 
you know, each State does it a little differently.
    My question to you is: how can a uniform definition of 
``therapeutic foster care services'' promote better quality of 
care and also more accountability in the training of staff and 
foster care parents? Does that make sense? And since I am 
getting to the end of my time, maybe Mr. Nyby and Ms. 
Williamson, since you have not responded yet, or Ms. Killett, 
could give us a response to that quickly, but then also, if you 
do not mind sending me a written response, that would be very 
helpful. And look at the legislation--I am sure most of you 
have already--and tell us what you think about this idea of 
coming up with a uniform definition.
    Ms. Killett. I do not have a uniform definition, but I 
would like to say that I would like to follow up with a written 
response, because I think it is worth a lot of thought to give 
you that information.
    The Chairman. That would be great.
    Senator Portman. Mr. Nyby, would you do the same, and Ms. 
Williamson? Great. Thank you.
    The Chairman. Senator Scott?
    Senator Scott. Thank you, Mr. Chairman, and I thank the 
members of the panel for your participation and certainly your 
rich testimony. And it is good to know that even Utah finds 
incredible assets in South Carolina. Well-educated at Wofford, 
I think I heard. God bless you. We will talk later on why you 
left, but we will get to that later. [Laughter.] That is not 
the point of the hearing.
    I will tell you that this is a moving topic and a hard 
topic to digest and to confront. I know that we oftentimes look 
at the $9 billion that is spent through one program, but if we 
look at it only from the prism of the finances, we miss the 
real point of the service, which is really trying to find a way 
to make sure that every American experiences their full 
potential.
    I had an opportunity last year to visit one of the foster 
care homes in South Carolina and spent, I think it was, the 
week of Thanksgiving going to a couple of the locations and 
talking to the kids about their goals, their dreams, their 
expectations. And one of the points that I believe, Ms. 
Killett, you made is an important point that seems to ring true 
consistently: their goal really is to get back home. And it 
does not really appear to matter what the home is like from our 
perspective on the outside looking in. What they want is their 
mom, very often--dad, too, but always I hear the same 
conversation. No matter how difficult the situation was at 
their house, they still have this yearning for their family, 
their blood line. And as a kid growing up in a single-parent 
household, I appreciate the sacrifices, the difficulty, and the 
road for so many single parents, and the challenges that many 
of the single parents have faced. I know that my mother would 
probably want to encourage me in many ways at times when I was 
being a difficult kid. My brother was the better of the two of 
us. He was a great kid. I was a rambunctious, challenging, 
difficult kid growing up.
    But what I have learned through listening and talking to 
the kids is that they are just brilliant, with so much 
potential. And like yourself, Ms. Burton, I had an amazing 
intern just this summer who has gone through the foster care 
program, and she is just going to change the world. She is 
going to be a doctor one day, but before she becomes a doctor, 
she is going to China to teach English. So in all of her moves 
and changes, she was able to remain focused in a way that very 
few of us have been able to focus. And learning their stories 
has been an important part of my questions.
    Ms. Burton, the role of drug addiction in tearing families 
apart seems to be really important in finding that path back. I 
would love to hear your comments on that. There is a program in 
a Greenville, SC facility called ``Serenity Place'' that is 
doing some remarkable things for families dealing with 
addiction. The program provides comprehensive residential 
treatment to about 120 pregnant women and young mothers each 
year, with 86 percent of the children still living with their 
families 1 year after discharge. In my opinion, that is a 
pretty powerful program with pretty strong results. I would 
love to get your perspective on the role of drug addiction, if 
you can touch on that, and on the family being cohesive and 
staying together, and the role of programs that have that type 
of success in just a year.
    Ms. Burton. Thank you for your question. In my personal 
experience at least, I believe that my mom's addiction was 
directly linked to her childhood, being in foster care, and the 
trauma that she experienced. And she never dealt with that, and 
no one provided the services that she needed to deal with it 
either, and she did not know maybe how to ask for them. I do 
not know what happened, but I believe that had she received 
services and therapy to find what are her triggers--because she 
would get clean, but then she would end up back there. So it 
was not the getting clean. It was the staying clean.
    Senator Scott. The cycle.
    Ms. Burton. Also, understanding her illness so that then I 
did not hold her addiction against her, could have been 
helpful. So I think it is providing therapeutic services for 
the whole family to understand the situation and to support 
each other, to keep strong ties.
    Senator Scott. Good. And to that end, Ms. Williamson, one 
of the questions that keeps ringing in my ears is, the system 
so often hinges on a caseworker's assessment. That seems to be 
such a powerful part of the analysis. What can be done and 
perhaps what should be done to make the caseworker better 
prepared to focus on family cohesion? And when I think about 
the family cohesion and think about Ms. Killett's points on the 
opportunity for in-home intensive therapy, I would love to hear 
your comments on what the prognosis is going forward on 
caseworkers and what we might do to think about it from that 
actual level of the transaction and the caseworker's assessment 
being perhaps the most important key to that transaction. I do 
not know that I am suggesting that we should figure that out 
here in Washington. It is going to have to be figured out by 
States in programs. But I think illuminating what should be 
done could be helpful to all of us who are watching this and 
paying attention to the issue.
    Ms. Williamson. Thank you so much. I have an encouraging 
response, and that is, indeed, States have recognized the 
importance of evidence-based approaches to these assessments 
and assuring that the assessments are not done in isolation of 
the family, that, in fact, it is very much with the family--not 
just the family, but the extended family at the table, 
community representatives at the table, stakeholders in the 
success of the changed outcomes. So, as Mr. Nyby mentioned, we 
need to first professionally equip our staff with the 
appropriate training on what is an evidence-based, research 
assessment tool. And a key component of the efficacy is that 
the family is involved. In Utah, I am happy to say that we have 
taken a national standard, the Child and Adolescent Needs and 
Strengths assessment, and created a Utah family and child 
assessment tool that is continuously revisited as an engagement 
tool throughout the lifetime of the case, so that when a parent 
says, ``I really could use assistance in mental health, I 
really could use assistance with a substance abuse disorder,'' 
it is consistently revisited, because perhaps the initial 
intervention is not successful, but still they seek the changed 
results.
    Senator Scott. Thank you.
    Ms. Williamson. Thank you.
    Senator Scott. My concern in asking the question about the 
caseworker's assessment and the tearing apart of families, as 
Ms. Killett spoke about, is that ultimately what we may see in 
the long run are fewer people calling for help when they need 
it because of the fear of the breakdown of their family. If you 
want to have any closing remarks on that, Ms. Killett--my time 
is actually up.
    The Chairman. Well, thank you, Senator.
    Senator Scott. Thank you.
    The Chairman. I want to thank each one of you as witnesses 
here today. You have been really good. Each one of you has 
brought a very important perspective to this, and we are going 
to see what we can do to help here. So I just want to thank all 
of the witnesses for appearing today.
    I also want to thank all the Senators who participated. 
This has been a very compelling discussion, and I do appreciate 
everyone's participation.
    Now, any questions for the record should be submitted by no 
later than Tuesday, August 18th, and I hope you will get your 
answers back as quickly as possible, because if you get those 
answers back, that helps us to move forward with legislation 
that may be helpful to you.
    I am grateful to each one of you for taking time out of 
your busy schedules to be with us. We have had a variety of 
perspectives here today, but all of you seem to agree that we 
can do a better job than we are doing right now. And I would 
like to see that we do.
    God bless all of you, and thank you for being here, and 
with that, we will recess until further notice.
    [Whereupon, at 11:45 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


      Prepared Statement of Rosalina Burton, Former Foster Youth, 
                             Escondido, CA
    Chairman Hatch, Ranking Member Wyden, and Members of the Senate 
Committee on Finance, thank you for inviting me to share my story and 
talk about some of the issues that I know affect many young people in 
foster care.

    My name is Rosalina Harmony Burton. I am 23 years old, a current 
intern with FosterClub, and a mental health worker at San Pasqual 
Academy, a residential facility for foster youth in Escondido, 
California.

    Before I worked at San Pasqual Academy, however, I was one of their 
clients for 14 months. I spent most of my childhood in the San Diego 
County foster care system. I was in and out of foster care for 12 
years, during which time I experienced more than 23 different 
placements, the most memorable of these placements being kinship care 
with my great aunt, with whom I spent over a year and a half. This 
length of my placement was due in part to my large family but was 
greatly affected by my stability. Because my placement was incredibly 
stable, I was the last of seven children to return home. At this time, 
I was 3 and my mother was pregnant with her eighth and final child; I 
was her fourth.

    We were removed from our parents' care for the first time after my 
mother went away to receive treatment for her addiction and my father 
was reported for neglect. My six siblings and I were taken to an 
emergency shelter before subsequently being placed in kinship care. One 
of my sisters and I were placed with our paternal great aunt. If I 
close my eyes, I can still picture the layout of her house, the pattern 
of my sister's and my matching bed sets on our first, very own beds, 
and smell breakfast cooking as I rose for our set morning routine. Yes, 
my great aunt was a prepared women, and living with her gave me a sense 
of stability, love, and normalcy that I, unfortunately, never 
experienced again. Eventually, all of my siblings and I were reunified 
with my parents, who relapsed on drugs shortly after.

    Over the next several years, my siblings and I would re-enter 
foster care, some of them less or more times than I, each after failed 
reunifications with our parents. At some point, we all just began to 
have different cases and different social workers. Things got really 
confusing. We no longer went to the same court dates or had the same 
permanency plans.

    Looking back, I can't help but wonder if my experience in foster 
care--and the impact it would have on my siblings and I--would have 
been different had I lived with relatives.

    At no point during any of my re-entries into foster care was 
kinship care brought up as an option again, despite the fact that my 
paternal great aunt, the one I lived with during my first foster care 
placement, had made it clear to me, my parents, and our caseworker that 
she wished to adopt me. I understand there may have been circumstances 
that I was not aware of, but it was never explained to me nor does it 
make sense that kinship placement with my aunt or any one of my 
relatives would have been ruled out. I come from a big family. I am one 
of eight, and we are part of an even bigger extended family: my father 
is one of nine.

    I often wonder if these relatives being on my father's side, 
including my great aunt I mentioned, had something to do with why we 
were never placed in kinship care throughout our multiple re-entries 
into foster care. This is important to mention because kinship care is 
the preferred option when available, and lineage should not be a 
barrier. While I was in kinship care, I saw my siblings and parents 
regularly as was prescribed by the court. I felt close to them and 
desired their presence in my life, but after we were scattered 
throughout foster and group homes, our close-knit sibling group became 
strangers to each other. At first, I enjoyed this reprieve because 
seven siblings meant always having to share everything. Unfortunately, 
I did not realize the damaging effect the long gaps between seeing my 
siblings was having on our relationships. Now as young adults, we 
realize that different nurturing experiences have shaped us to be 
completely different people with no history to hone in on when issues 
come up.

    Before entering care, my siblings and I took care of each other 
because we had to--we were forced to bond due to close proximity. Once 
our environment changed, bonding became optional and that history 
obsolete. By the time I was 13, I often worried, if one of my siblings 
passed, about not having anything to say at their funeral because I 
didn't even know what their favorite ice cream was, better yet who they 
were. Memories are an essential part of staying connected to your 
siblings in adulthood, and youth with strong sibling connections are 
proven to have better outcomes. When there is no history, there is 
nothing to miss, and when there is nothing to miss, it becomes 
extremely hard to rationalize why you should try to have a relationship 
with someone who has nothing in common but DNA. Relationships are hard, 
and even harder for those who have experienced relationship loss due to 
foster care. We must do better for sibling relationships. I would like 
to share with you what I know about my siblings.

    My eldest sister, the first born of our sibling group, emancipated 
out of foster care at the age of 16. I don't believe that was a healthy 
choice, but at the time reunification with my mother was not an option. 
She just wanted out of the foster care system. She received her GED 
before exiting care and now lives with my mother. Unfortunately, she 
continues, as she did then, to struggle with addiction.

    My eldest brother, and the second born, found stability during his 
third entry into care with a school friend and their family. Our 
father's parental rights were terminated, and our mother voluntarily 
signed away her rights after my brother found stability. He aged out of 
foster care with this family and continues to have a close relationship 
with them. He is a UCLA graduate, volunteered for AmeriCorps, and was 
recently offered a job as a campaign manager.

    With my elder sister, and the third born, parental rights were 
terminated for my father. My sister found stability during her second 
time entering foster care with a family from church. Although she 
exited and reentered care multiple times due to failed reunification 
efforts, this foster family became a constant, and she aged out while 
in their care at 18. She graduated high school and recently enrolled in 
community college.

    I, the fourth child, had my father's rights terminated after a 
failed reunification at 13 years old. Within 6 months of entering his 
care, we became homeless. I was then reunified with my mother at 15 
while she was in a homeless shelter. I often slept at friends' houses 
and skipped or missed school regularly. Living at home felt like I was 
walking on eggshells due to my mother's illness and was an environment 
I did not feel safe in. I reentered foster care no more than a year 
after living with her. Shortly after, I fought for my mother's rights 
to be terminated because I was done with failed reunifications. I 
emancipated at the age of 19, received my high school diploma, and have 
been employed full-time ever since. Last semester, I returned to 
college after taking time to work on my mental health.

    Within a year of leaving my mother's care and entering foster care, 
my younger sister, the fifth born, tried to make things work with my 
mother by entering a teenage homeless shelter down the street from the 
shelter my mother stayed in. For reasons I am not aware of, this 
failed. She reentered foster care, but I do not believe my mother's 
parental rights were terminated. She became pregnant at 17 and aged out 
of care at 18. Now she has two children and struggles to maintain 
stability. She graduated with her high school diploma and has her CNA 
certificate.

    Within the same year of me leaving my mother's care and entering 
foster care, my younger sister, the sixth born, began to suffer from 
mental health issues. I am not sure what the circumstances of her 
reentry were, but she reentered foster care, and my mother's rights 
were terminated. She emancipated at the age of 18, now lives with my 
mother, and continues to struggle with severe mental health issues.

    Last, but not least, my two younger brothers, the seventh and 
eighth born, reentered foster care a total of four times before their 
cases were closed. When under my mother's care, neither brother spent 
much time living with my mother because her mental illness greatly 
affected her ability to parent. My brothers often relied on connections 
through former foster homes, mentors, and friends. When asked why they 
never reentered foster care, they similarly replied that everyone else 
left my mother and they felt a sense of loyalty not to do the same. My 
mother did and does love us, her children; she was just trying to do 
the best she could with what she knew. The seventh born moved upstate 
during his junior year, graduated from high school, and is now pursuing 
a career as a youth pastor while working full time. The eighth born is 
extremely smart, but struggles to apply himself. Still, he is working 
on his high school diploma and lives with my mother.

    I can view the multiple reunifications as proof that my parents 
wanted to be a part of my life. As you have read, my re-entries into 
foster care are also proof that they didn't know how to keep me safe 
and care for my siblings and me effectively. Entering foster care is a 
traumatic experience for all parties involved. My father felt invaded; 
he was raised in a family where what happens in the home stays in the 
home and you just don't talk about your problems. My mother felt re-
victimized, haunted by her own experience in foster care as a child. 
Her own struggles with abandonment, broken family ties, and abuse, 
along with a lack of addiction and mental health services, lead to my 
multiple reentries into care.

    For many years, my mother struggled to get and stay clean for my 
siblings and me. Her battle with mental illness, her inability to 
financially support eight kids, along with her dependence on an abusive 
man, made it practically impossible. My life had become a vicious 
cycle. My mother would leave my father; all of us kids would enter 
foster care. My mother would get clean, but the foster care system 
would demand more stability from her. My father had the ability to 
provide stability, so my mother would go back to my father, as she felt 
it was her only choice. We siblings would be reunified. At home, she 
was exposed daily to drugs, would relapse. Domestic violence and 
neglect ensues, and we kids enter foster care again. Mother gets clean 
for her kids, does not understand why she returned to father, and 
decides to leave. The cycle starts over. Eventually, my parents' rights 
were terminated when I was 15 years old.

    By the time my mother had finally figured out how she could 
maintain a house, her sobriety, and work on her mental illness so that 
her children were returned, the damage was done. I didn't know my 
mother; I didn't know my siblings, and we all had very different 
childhood experiences that no one told us would affect reunification. I 
was no longer the kid who just wanted to be with her mom and dad. I was 
a budding teenager suffering with depression, angry that the world had 
dragged me through the mud, and unprepared to process all of this with 
parents and siblings who were struggling with their own issues. After 
my last reunification, my mother continued therapy, and every now and 
again she would ask that my siblings and I join her in a family 
session. These were not helpful. Instead I would have liked to have had 
intensive one-on-one and family therapy with a therapist who 
specialized in the effects of long-term foster care, PTSD, sibling 
rivalry, and complicated family dynamics.

    I imagine that mandatory individual and family counseling before 
and during reunification, along with financial assistance, would have 
played a huge role in a successful reunification. Such therapy, 
combined with the substance abuse treatment she received, would have 
helped my mother to identify childhood traumas that affected her 
parenting and led to her need to numb herself with harmful substances 
in the first place. I also imagine, had my mother received preventative 
and ongoing services from professionals who understood mental illness 
and saw her as a victim and not a drug addict, maybe we would have 
never needed to spend so much of our childhood in foster care.

    Although I am honored to be here speaking to all of you today, I 
imagine--had my mom received the services she needed during that 
critical time when she volunteered to get clean when I was three--I 
would not be standing here today. I would not have aged out of 
congregate care, and I would not still be hoping to one day find my 
forever family.

    Please support prevention services such as intensive counseling and 
financial assistance that help kids stay with their families. Support 
these same services after reunification so all parties can talk openly 
and honestly about their fears, hopes, and expectations to help 
families stick together and to understand the damage time away from 
each other can have on their relationships. Support kinship placements 
at all times, because sometimes parents will fail to reach the bar, but 
their kids should not be forced to find a new family when extended 
family members are available.

    Today I work at an amazing group home. However, I recognize that, 
as hard as they try, group homes will never be able to give youth all 
the things that a loving family can. Not at graduation, not during your 
first pregnancy, and definitely not at your 30th birthday. Group homes 
are temporary. Families should be forever.

    Thank you.

                                 ______
                                 
        Prepared Statement of Donna Butts, Executive Director, 
                           Generations United
    Generations United is pleased to provide testimony to the Senate 
Committee on Finance. We applaud Chairman Hatch, Ranking Member Wyden, 
and members of the committee for your leadership in holding this 
hearing on preserving families and reducing the need for foster care. 
Every child deserves to grow up in a safe, stable and loving family. 
For about 7.8 million children that family is headed by kin--a 
grandparent, uncle, aunt or close family friend. While it may sound 
simple, the issues facing kinship families are varied and complex. The 
families are, however, united by one common factor. They believe beyond 
a shadow of a doubt in the importance of family. They believe children 
fare better when they are raised in a family, not a system and they are 
right.

    My testimony today will focus on four specific areas:

   Notice to relatives when children are removed from their parents' 
        care.
   Licensing of kinship caregivers.
   Preventing children from entering foster care.
   Trauma-informed supports for kinship families.

    First, a little about Generations United. Generations United is the 
national membership organization focused solely on improving the lives 
of children, youth, and older people through intergenerational 
strategies, programs, and public policies. Since 1986, Generations 
United has been the catalyst for policies and practices stimulating 
cooperation and collaboration among generations. We believe that we can 
only be successful in the face of our complex future if generational 
diversity is regarded as a national asset and fully leveraged. For 
almost 20 years, Generations United's National Center on Grandfamilies 
has been a leading voice for issues affecting families headed by 
grandparents or other relatives.

    Despite the challenges facing kinship families, children fare well 
in the care of relatives. Compared to children in non-relative care 
they have more stability and are more likely to report feeling loved. 
Since 1996,\1\ Federal law has affirmed that relatives should be the 
first placement choice. Research confirms that Congress is right to 
consider relatives first, because placement with relatives:
---------------------------------------------------------------------------
    \1\ Generations United. (2014). The State of Grandfamilies in 
America: 2014. Retrieved from http://www.grandfamilies.org/Portals/0/
14-State-of-Grandfamilies-Report-Final.pdf.

   Reinforces safety, stability, and well-being.
   Reduces trauma.
   Reinforces child's sense of identity.
   Helps keep siblings together.
   Honors family and cultural ties.
   Expands permanency options.
   Can reduce racial disproportionality.\2\
---------------------------------------------------------------------------
    \2\ Ibid.

    While kinship families are diverse in terms of race, culture, 
income, and geography, many of their strengths, challenges and needs 
cut across these differences. Yet the degree to which they receive the 
supports and services they need is often tied largely to the way in 
---------------------------------------------------------------------------
which they happen to come into their grandparent, aunt or uncle's care.

    There are roughly four types of arrangements for children in 
kinship families.

   Children in licensed kinship foster families.
   Children in unlicensed families who are under child welfare agency 
        supervision.
   Children who came to the attention of the child welfare agency, but 
        are diverted to live with relatives without child welfare 
        supports or services.
   Children who never come to the attention of the child welfare 
        agency because family steps in to care for them before 
        referrals are made.

    The same children, with the same needs and strengths could land in 
any of these families. Yet children in licensed care are far more 
likely to receive the support services and benefits critical to meet 
their needs, while children with family outside foster care often have 
little to no support. Congress should act to ensure that all children 
in relative care get the supports they need to thrive regardless of the 
circumstances that brought them to live with grandma or another caring 
family member.

            kinship care as a way to preserve families and 
                    reduce the need for foster care
    Over a quarter of the foster care system already relies on 
relatives to care for children.\1\ Based on the research and how we 
know children fare, a key way to preserve families, reduce reliance on 
group homes and promote permanency and better outcomes for children is 
to prioritize and support placements with kin when children cannot 
remain with the birth parents. Congress has enacted several provisions 
in the last few years to increase placements with relatives, including 
mandatory identification and notification of relatives when a child is 
removed from a parent's care and the Guardianship Assistance Program. 
Congress further provided for important waivers, which allowed states 
and communities to use Federal child welfare monies to support kinship 
care and promote prevention. We applaud these advances and encourage 
efforts to further strengthen these provisions, and better support 
kinship families by:

   Improving identification and notification of relatives.
   Reducing barriers to foster care licensure for relatives.
   Reforming child welfare financing to better support preventive and 
        post-
        permanency services such as kinship navigators.
   Improving access to comprehensive, trauma-informed supports and 
        services.
   Preserving and coordinating flexible funding sources that fill in 
        service gaps for relatives outside the formal foster care 
        system.
   Elevating the Guardianship Assistance Program.
Improving Identification and Notification of Relatives
    The Fostering Connections to Success and Increasing Adoptions Act 
of 2008 requires the States to exercise ``due diligence'' to identify 
and notify relatives within 30 days of a child's removal from his/her 
parent's home. Moreover, the notification requirement includes that the 
State ``explains the options the relative has under Federal, State, and 
local law to participate in the care and placement of the child, 
including any options that may be lost by failing to respond to the 
notice.'' 42 U.S.C. Sec. 671(a)(29). Anecdotally, when we speak with 
caregivers and provide training to States, most know very little about 
this requirement and do not seem to be providing or receiving 
information concerning options, including the option to become a 
licensed foster parent. For those who do receive the information, many 
report that it was presented in a way that was confusing and even 
threatening. Many grandmothers have told us about getting a call in the 
middle of the night from a child welfare worker telling them to come 
pick up their grandchildren immediately or they will end up in foster 
care.

    Once relatives answer this type of call, the agency should ensure 
that relatives have the right supports whatever placement choices they 
make. If the relative chooses not to become a licensed foster parent 
and instead wants the child diverted from the system, the agency should 
be clear with the caregiver that diversion typically means lack of 
legal status, lack of information about available financial assistance 
and health care, and fewer services for the parents. If the child comes 
to the attention of the child welfare system and without a willing 
relative the child would have to be brought into the system. The agency 
then has a responsibility to meaningfully connect the child and 
caregiver with available supports.

    For American Indian/Alaska Native children, notice to and 
involvement of tribes, tribal-State collaborations and compliance with 
the Indian Child Welfare Act (ICWA) are important and unique tools for 
keeping families together. By working together, tribes and States can 
increase services to children and families, expand placement options 
(particularly with family), and help to ensure that interventions are 
culturally appropriate.

    Generations United recommends changes to help ensure that relatives 
receive meaningful identification and notification with clear 
information and assistance, so they can digest their options and make 
the best decisions for the children. We recommend that Congress require 
that the notice to relatives be in writing and include information 
about additional community resources to help kinship families (other 
than the child welfare agency); that States define the steps necessary 
to constitute ``due diligence'' in identifying and notifying relatives; 
and that States document their efforts and responses identifying and 
notifying relatives.
Reducing Barriers to Foster Care Licensure for Relatives
    Federal law allows States a great deal of flexibility in creating 
family foster home licensing standards. The Social Security Act at 42 
U.S.C. Sec. 671(a)(10) tells States that they must establish and 
maintain standards for foster family homes and child care institutions 
that are ``reasonably in accord'' with recommended standards of 
national organizations. Yet until now there were no comprehensive 
national standards. Due to this lack of guidance, licensing standards 
vary dramatically among the States and often pose unnecessary barriers. 
While States may offer waivers to non-safety related licensure 
barriers, many child welfare agencies do not use waivers. Agency case 
workers may not be clear on how to get a waiver and it may take too 
long for already overburdened workers.

    As a result, appropriate relatives are often denied licensure, 
causing children to be placed unnecessarily in group settings or in the 
limited pool of non-related family foster homes. In other cases, 
children are placed in unlicensed homes with relatives and consequently 
receive inadequate supports, which can cause placement instability.

    For example, JJ and his siblings went to live with their 
grandparents when their father's drinking got out of control. His 
grandparents wanted to provide a safe and loving home for JJ, his two 
brothers and little sister. They struggled against the clock to make 
the required changes to the grandparents' house, so they would meet 
State requirements and be able to continue as a stable, unified family. 
JJ's grandparents had to file for bankruptcy because of their effort to 
make their home comply with foster care standards. A home filled with 
love, but not enough bedrooms.

    During fall 2014, Generations United, the American Bar Association 
Center on Children and the Law, The Annie E. Casey Foundation, and the 
National Association for Regulatory Administration (NARA) released the 
first set of comprehensive model family foster home licensing 
standards. NARA, as the nation's association of human service 
regulators, took the added step of adopting them as its standards.

    This model does away with artificial and potentially discriminatory 
barriers, such as requirements to own vehicles, be no older than age 
65, have high school degrees, and live in homes with certain square 
footage in ``accessible'' (not rural) locations. In their place are 
reasonable standards that lead to safe and appropriate homes and 
families. For example, functional literacy is required, rather than 
high school diplomas, capacity standards are based on home studies, and 
other methods of transportation, including public transportation, may 
be used. Generations United recommends that Congress direct States to 
assess and make any necessary changes to their existing standards, 
using the NARA model as a tool.
Reforming Child Welfare Financing to Better Support Preventive and 
        Post-
        Permanency Services such as Kinship Navigators
    For every one child in foster care with a relative, there are about 
23 outside the system being raised by a grandparent, other extended 
family member, or close family friend without a parent present.\2\ 
These families save taxpayers more than $4 billion each year by 
preventing these children from entering foster care.\3\ Yet, these 
families face unique challenges and need support.
---------------------------------------------------------------------------
    \3\ Ibid.

    Grandparents or other relatives often take on the care of children 
with little or no chance to plan in advance. Consequently, they often 
face obstacles obtaining legal custody, addressing the children's 
education needs, accessing affordable housing, ensuring financial 
stability, and obtaining adequate health care for the children and 
themselves. Under current child welfare financing laws, these families 
receive little or no preventative or supportive services to keep them 
---------------------------------------------------------------------------
together and out of foster care.

    Kinship caregivers often keep families together at great sacrifice 
like the grandmother in Tennessee who worked at Vanderbilt University. 
Her grandson had been living on the streets with her son who had mental 
health issues. The grandson had no dental care. When she was given 
custody of him, his teeth were in such poor shape she spent down her 
retirement savings to have them fixed. Later, after joining a support 
group, she learned she could have accessed the State Children's Health 
Insurance Program and saved her retirement savings for the years she 
would need them for her own well-being.

    Support and prevention services for these kinship families can 
prevent entry into the much more costly foster care system. Allowing 
States to flexibly use title IV-E funds under the Social Security Act 
can prevent children from entering the foster care system, thereby 
reducing reliance on group homes, ensuring a family for every child, 
and decreasing the overall number of children in the foster care 
system.

    Programs like kinship navigators, supported case management and 
access to quality mental health and behavioral health services can be 
critical to ensuring relatives receive the supports they need within 
their communities. These services can prevent children from entering or 
re-entering foster care after they are adopted or in permanent 
guardianships with relatives. Research is demonstrating strong outcomes 
for families receiving many of these innovative and evidence-informed 
services, such as those offered by A Second Chance Inc. in Pittsburgh, 
Pennsylvania and by the District of Columbia Child and Family Services 
Agency. However funding limitations have prevented comprehensive 
research on what packages of fully supported, effective kinship 
diversion services would look like in a State or local child welfare 
agency. Generations United recommends support for evaluation funds to 
identify and evaluate such promising practices.
Improving Access to Comprehensive, Trauma-Informed Supports and 
        Services
    While many kinship caregivers report experiencing benefits, such as 
the emotional rewards that come with caring for children, they often 
also experience challenges. These can be even more daunting when caring 
for children who have experienced trauma, which often leads to complex 
mental health and behavioral issues. Therapeutic foster care provides 
residential level of services for children and youth in a family 
setting with specially trained caregivers. Sadly, too many children and 
their kinship caregivers are not informed about these supports and are 
left to manage serious mental health needs on their own. Without 
outside support, the children are at risk of re-entry into foster care 
or poorer outcomes. Generations United recommends urging States to 
ensure that kinship families have access to the same level of 
therapeutic services as non-relatives.

    These services would help young people like Michael who at the age 
of 12 began a foster care odyssey that led to 16 placements before he 
aged out. While he repeatedly said he wanted to be with his extended 
family, he was moved from placement to placement. Even though the 
facilities he entered for treatment all concluded he didn't have any 
major mental health issues, he was moved from one placement to another 
because he kept trying to get back to the fragments of his family.

    One approach to ensure access to therapeutic services and other 
supports is to require States to designate a kinship care ombudsman or 
a primary kinship resource liaison at the child welfare agency who 
provides relatives with information about placement and visitation 
options; the role of the child welfare agency in each option; and how 
each option corresponds to which benefits, resources, and services 
would be available. This person would help ensure that relatives get 
access to the same types of comprehensive supports that non-relative 
foster parents receive. The kinship resource person would also act as a 
liaison with the caseworker assigned to the family, and other agencies 
and community organizations that provide resources and assistance to 
relatives.

Preserving and Coordinating Flexible Funding Sources That Fill in 
        Service Gaps for Relatives Outside the Formal Foster Care 
        System
    Children who are diverted from the child welfare system to 
``informal care'' with relatives often do not have access to the 
financial and other supports available to relatives who are licensed or 
under agency supervision. For them, a small amount of monthly support 
through the Temporary Assistance for Needy Families (TANF) child only 
grant or community-based services funded by the Social Services Block 
Grant may be among the few places they can turn for assistance. The 
important role of these Federal funding streams in supporting children 
in relative care must be recognized.

    In 1996, Congress explicitly envisioned TANF as a critical support 
for kinship families. One of the four primary purposes of TANF is ``to 
provide assistance to needy families so that children may be cared for 
in their own homes or in the homes of relatives.'' \4\ Almost two 
decades later, kin continue to rely on TANF as often the only source of 
financial support for helping them keep the families they raise 
together. Although TANF policy explicitly states that children cared 
for by relatives can receive TANF assistance, many kinship families 
face challenges accessing it, in large part because the actual 
framework of TANF was not designed with them in mind. Federal TANF 
rules were developed for young, low-income single mothers with no or 
minimal financial assets, whereas the majority of children in kinship 
families have a caregiver who is age 50 and older and 16 percent of 
them have a caregiver who is already retired.\5\ TANF work 
requirements, time limits, and the requirement to assign child support 
enforcement to the State often do not make sense for kinship families.
---------------------------------------------------------------------------
    \4\ 42 U.S.C. Sec. 601. The other three are: (2) end the dependence 
of needy parents on government benefits by promoting job preparation, 
work, and marriage; (3) prevent and reduce the incidence of out-of-
wedlock pregnancies and establish annual numerical goals for preventing 
and reducing the incidence of these pregnancies; and (4) encourage the 
formation and maintenance of two-parent families.
    \5\ Annie E. Casey Foundation. (2012). Stepping up for kids: what 
government and communities should do to support kinship families. 
Retrieved from
    http://www.aecf.org/resources/stepping-up-for-kids/ (citing 
Population Reference Bureau's analysis of the 2011 Current Population 
Survey Annual Social and Economic Survey.)

    Generations United recommends that a number of things be done to 
make TANF more accessible to kinship families including collecting data 
and providing clear guidance on the ``good cause'' exception to 
complying with child support enforcement; making exemptions to work 
requirements and time limits; and increasing or eliminating asset 
limits for kinship caregivers.
Elevating the Guardianship Assistance Program
    The Fostering Connections to Success and Increasing Adoptions Act 
of 2008 allows Federal reimbursement for States offering kinship 
guardianship assistance to children exiting foster care to permanent 
guardianship with relatives. To date, 31 States, the District of 
Columbia, and five Indian tribes are offering subsidized guardianship. 
Children in 19 States and the remaining tribes do not have access to 
this important permanency option. Generations United urges policymakers 
to continue to elevate the value to children of offering this 
permanency option.

    Poet Maya Angelou, herself a grand success raised in part by her 
paternal grandmother said, ``Today, people are so disconnected that 
they feel they are blades of grass, but when they know who their 
grandparents and great-grandparents were, they become trees, they have 
roots, they can no longer be mowed down.'' All of America's children 
deserve a way back home--a way to remain with the roots--the families 
that grow our country's next generation to be strong, productive and 
contributing citizens.

    Thank you for the opportunity to offer testimony for this important 
hearing. I would be happy to answer any questions.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
    WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following statement during a committee hearing 
exploring alternatives to help families and children reduce reliance on 
foster care group homes:

    Robert Frost once wrote, ``Home is the place, when you have to go 
there, they have to take you in.'' Unfortunately, for too many children 
in our foster care system, that type of home is unavailable.

    Today, the Senate Finance Committee will hear testimony on 
alternatives that can reduce the reliance on foster care group homes. I 
have been very pleased to have worked on this hearing with Ranking 
Member Wyden. This is a bipartisan hearing and I appreciate his 
efforts--as well as those of his staff--to make it so.

    The basic premise of this hearing is simple: whenever possible, 
children should grow up in a home with their family. When problems 
arise, attempts should be made to keep children safely at home. If a 
child cannot be kept safely at home, efforts should be made to place 
them with fit and willing relatives.

    Children and youth should only be placed in group homes for short 
periods of time and only when efforts to place them in a safe family 
setting have been exhausted. Too many children and youth spend years 
isolated and confined in foster care group homes.

    This past May, the committee held a hearing on the need to safely 
reduce reliance on foster care group homes. We heard powerful testimony 
from a former foster youth about her negative experiences in a foster 
care group home. The committee also heard testimony about how 
expensive, inappropriate, and ultimately detrimental placement in these 
homes can be for many children and youth.

    I believe that we should do whatever we can to reduce the reliance 
on foster care group homes. There is a point when we should refuse to 
spend scarce taxpayer dollars to subsidize a placement that we know 
results in negative outcomes for children and youth. As I have said in 
the past, no one would support allowing States to use to Federal 
taxpayer dollars to buy cigarettes for foster youth. In my view, 
continuing to use taxpayer dollars to fund long-term placements in 
foster care group homes is ultimately just as destructive.

    However, it is not sound public policy to work to reduce the 
reliance on group homes without addressing the need to support a family 
placement for children and youth currently in or at risk of entering 
one of these facilities.

    The purpose of this hearing is to examine alternatives to foster 
care group homes. Such alternatives include allowing States to use 
their Federal foster care funds for the purpose of providing services 
and interventions that can result in allowing children to stay safely 
at home.

    Currently, the Federal Government devotes the highest proportion of 
its Federal foster care funding to the least desirable outcome for 
vulnerable families: removal of a child from his or her home and 
placing them in stranger care or in a foster care group home. Current 
Federal foster care laws prohibit States from using certain Federal 
funds to provide up-front services that could ameliorate harmful 
conditions in the family home.

    Some States, like Utah for example, believe that they can reduce 
the need for foster care if they use certain Federal funds to provide 
front- and back-end services to families. In 2011, Chairman Baucus and 
I drafted legislation that allowed up to 30 States to get waivers in 
order to innovate and use their Federal foster care dollars to provide 
these up-front services.

    Today we will hear from an official from my State of Utah on how 
this flexibility has improved outcomes for children and families, 
reducing the reliance on foster care. I believe we should extrapolate 
from Utah's innovative HomeWorks initiative as a model for all States. 
When you ask a child who has been in foster care how we can best 
improve the current foster care system, often the answer will be: ``You 
could have helped my mom so that I did not have to go into foster care 
in the first place.''

    When a child cannot remain safely at home or assisting the parents 
to maintain guardianship is untenable, another alternative is to locate 
a fit and willing relative for the child. And, in recent years, 
Congress has taken some steps to increase these types of outcomes.

    For example, in the landmark legislation, the Fostering Connections 
to Success and Increasing Adoptions Act of 2008, Congress allowed 
States to get Federal reimbursement for certain kinship placements. 
And, under legislation enacted in the last Congress, States are now 
allowed to get Federal incentives for increases in kinship placements.

    In other words, Congress has strongly signaled to States that 
kinship placements should be a priority, but challenges still remain. 
Today we will hear about these barriers to kinship placement and 
suggestions to make these placements more prevalent.

    I know that Senator Wyden is planning to introduce legislation 
which would allow Federal funds to be used for services to help 
families stay safely together. I look forward to working with him and 
any other members of the committee on legislation that would reduce the 
reliance on foster care group homes and allow States to use their 
Federal foster care dollars for these prevention services.

    I hope to have a committee markup of this legislation in the fall. 
This hearing is part of a bipartisan process to improve outcomes for 
vulnerable children and families. I hope that members will listen 
carefully to the testimony and policy recommendations presented here 
today.

                                 ______
                                 
                 Prepared Statement of Sandra Killett, 
                     Parent Advocate, New York, NY
    Thank you, Chairman Hatch, Ranking Member Wyden, and Members of the 
Committee, for the invitation to be here today. My name is Sandra 
Killett, a mother who raised two sons, now 20 and 22 years of age. I 
reside in New York City and am currently the Executive Director of the 
Child Welfare Organizing Project (CWOP), which is an organization led 
by parents and youth affected and/or who had contact with the New York 
City child welfare protection system. Most of the staff and board of 
directors of CWOP are parents who have had children placed in foster 
care and now help other parents facing similar challenges. Prior to 
becoming the Executive Director, I served as the CWOP Board Chair and I 
also graduated from the CWOP Parent Leadership Academy in 2005.

    Today, I am here to share insights gained from my own life 
experiences as a parent impacted by the child welfare protection 
system. I am also representing the perspectives of hundreds of other 
parents with whom I have worked when employed as a Parent Advocate by a 
New York social service agency and parents with whom I continue to 
connect with on a daily basis as the director of CWOP. Some of the 
parents are here in the room today and others are in various 
jurisdictions around the United States. Most of the parents here with 
me today are from New York City.

    I plan to talk about gaps in service and also share some 
recommendations on how to improve services for biological families 
involved with the child protection system. My key themes are:

    Realigning child welfare dollars to support a broad array of 
        community-based prevention and early intervention services to 
        strengthen families and keep them safely together--if dollars 
        are realigned to meet the immediate needs of families, we could 
        reduce the numbers of children being removed from home and 
        placed in foster care.

    Promoting a supportive, non-punitive approach to help families 
        build on their protective factors while keeping their children 
        at home.

    Partnering with parents to work with other families before, 
        during, or after involvement with child protection and the 
        courts.
                                my story
    I want to share a little about my story to help you better 
understand why I am urging you to act on these recommendations. I am a 
parent who has been affected by the child welfare protection system in 
New York City, and this experience has forever changed my life and has 
traumatically impacted both of my sons, Tre and Tank.

    As a single mother, I relocated to New York from Atlanta, Georgia 
with my two boys when they were young due to financial hardship. All of 
my family and supports were in New York. Their father travelled back 
and forth between New York and Atlanta to visit the boys, hoping that 
the move to New York was just temporary. This was difficult for my sons 
because they were very close with their dad and he loved them. My 
oldest son, Tre, became very distraught every time his father left New 
York to return to Atlanta. He began exhibiting aggressive behavior and 
angry outbursts as he got older. The angry outbursts towards me were 
later denied. Tre simply blamed me for his father not being in his 
life.

    I sought help and support to deal with my family's challenges. My 
sons and I attended family counseling. This helped provide me with the 
tools to help my sons understand why I separated from their father, 
eventually resulting in divorce. During family therapy, I learned of 
Tre's need to have his own therapist for individual sessions. The 
therapist suggested that I seek an outside individual therapist, which 
would make my son confident that the therapist was on his side so he 
would hopefully open up and be truthful about his feelings concerning 
his dad and me. I tried to arrange individual therapy for Tre, but I 
was placed on a waiting list.

    Then I began to receive calls from the school about my son fighting 
and being disrespectful to his teachers. The school counselor helped me 
see the hurt that my son had experienced by his father not being 
emotionally or financially present and telling his sons that he was the 
only one who should be there for them as a father figure or a support 
to me.

    I began to call every week to ask my therapist about expediting 
Tre's individual therapy. I was informed each time that I was still on 
a waiting list. Nothing became available within the month. We continued 
to have episodes at home. I became afraid of Tre, who was then 13 years 
old. I was concerned about the safety of my youngest son who was 10. 
Tre would become so enraged that I would have to retreat with my 
youngest son to my bedroom. Eventually, I could not say anything to Tre 
without him threatening me.

    I went into the local Office of Children's Services requesting 
assistance. I was informed that due to whatever my son told them about 
a scratch on his neck which he got from me grabbing him, I was going to 
be investigated for abuse. I had no idea what this really meant or how 
to respond to it. I was informed that both of my sons would be 
interviewed privately, without me present. Although I did not agree, I 
was told that I did not have a choice in the matter. The Child 
Protective Services (CPS) worker asked me some questions which I 
thought were intrusive, but nevertheless I answered them. None of the 
questions pertained to the reason I came to their office. All of the 
questions related to how I treated my children and how I disciplined 
them. Throughout this process, I was not concerned until my sons 
voluntarily told me the types of questions they were being asked and 
how they were being interviewed by the worker. When my sons answered 
the questions, the CPS worker guided them to ``tell the truth about me 
beating them'' but my sons were clear about the form of discipline they 
received. They explained that I would discipline them by taking away 
their favorite things, such as ``no television'' or ``no play dates,'' 
etc. I was very angry and frustrated and definitely felt misunderstood 
by the child protection system.

    At the end of the interrogation, I was told that someone would be 
visiting my home once or twice a week to monitor my family. The worker 
later concluded that I was not abusive or neglectful and I was not 
mistreating my children. The worker stated that I had everything in 
place to support my family. She acknowledged that my sons were healthy, 
they regularly attended school, had positive peer relationships, and 
both had lots of involvement in social activities. In addition to 
having a loving and supportive extended family, we had stable community 
ties, including connections with the church, strong relationships with 
friends, positive school influences, and a wealth of resources and 
connections through my volunteer and activism work in community 
organizing for social justice. I now know that I had protective factors 
in place for my family which were a sign of stability and resilience. I 
continued to request services and was informed by the worker that the 
department didn't have the means to provide any home-based family 
counseling services or individual counseling.

    Eventually my son and I had an altercation, and Children's Services 
took him from my home and placed him in foster care. I was treated like 
a criminal. The prosecutor was trying to get a conviction, and the 
family court was trying to take my youngest son away from me. I was in 
a state of shock. It was unacceptable to me that the situation with my 
son and me was being handled in such a negative manner. My younger son, 
Tank, became withdrawn and very sad. Not having his big brother at home 
was devastating for Tank. They were very close; we were very close. The 
foster care agency continued to say that I was the problem. My son did 
not receive any therapy while in foster care. I continued to receive 
therapy on my own.

    If my family had received home-based family therapy, I believe we 
would have avoided the trauma of separation from the family and the 
development of a strained relationship between my two sons. We would 
have been working together as a family through the crisis. After all, 
isn't that what most families do who can afford to pay for the type of 
services that I was hoping would be provided to my family from the 
child welfare system? I would have been able to help my son go through 
experiences that an adolescent would go through at his age, such as 
asking a girl out on a date, researching colleges, and helping him 
prepare for high school graduation. The simplest things were taken from 
me and my family--exploring his inner emotions and simply sharing all 
of this with our entire family. We will never get that part of our 
lives back. However, we can move forward and make new memories.

    Today, we are still healing as a family. My relationship with my 
son is off and on, but we will work it out. He does not like to talk 
about his experience being in foster care. He knows that I never gave 
up on him and continued to advocate for him. Tre eventually returned 
home without incident, but the ties and bond of mother and child and 
sibling will never be the same. He enjoys the fact that his little 
brother had the opportunity to go away to college and often states that 
he wished he had been a little more open to receiving my love and 
caring. He really thought I did not want him around. He thought the 
extended family did not want him around, and he even had hostility 
towards his brother.

    Tre really missed being a kid. The foster care system has a way of 
doing this to kids. He remained in foster care for 1\1/2\ years before 
he was able to return home. Although it has taken some time, my son has 
started to feel like he belongs somewhere, and that somewhere is with 
his family. Inside he knows, ``I know my family loves me.''

    My family represents one of the thousands of families across the 
country in crisis and could have stayed together if we had been offered 
the right community services early in the process. If funding for home-
based therapy and other supportive services had been available to help 
our family, it is very likely that my son might have remained at home 
and I would not be here talking to you today.
             my work as a parent advocate and collaborator
    Today I do amazing work helping families organize and transform a 
very complex child protection system to a child welfare system. I work 
closely with social workers, parent advocates, and other professionals 
who want to make a difference in the lives of families. By hearing my 
story and experiences, they are better able to learn how to engage 
families and understand how communication and the right resources can 
impact the lives of children in their own communities. It is through 
our collaborative work efforts that we can change laws to improve 
policies and practices for vulnerable children and families.

    I have extensive experience in the New York nonprofit child welfare 
sector. I have educated parents about their rights and the processes to 
reunify with their families, acted as a family mediator, and worked to 
organize and reform child welfare policies. In 2013, I was hired as the 
Executive Director of CWOP. I am a member of the New York Coalition for 
Child Welfare Finance Reform, which is a group of service providers and 
advocates who have collectively developed a set of principles for 
Federal child welfare finance reform. I work with numerous advisory 
groups such as the Casey Family Programs Birth Parent Advisory 
Committee to help make systems reforms. Based on our experiences, we 
have developed several ideas to improve child welfare policy and 
practice to help prevent child abuse and neglect and more effectively 
serve children, parents, and families involved with the child welfare 
system. I am a founding member of the Birth Parent National Network, a 
dynamic national network of birth parents who work to educate 
policymakers and key stakeholders about the needs and gaps in services 
for child welfare-involved families. I served on the Disproportionate 
Minority Representation Committee at the Bronx Family Court and 
Manhattan Family Court, and I am continuing to volunteer with Community 
Voices Heard to address socioeconomic issues such as welfare, housing, 
education, and employment for families involved with the child 
protection system.

    I am very committed to reducing foster care placements and bringing 
the parent voice to the table to transform and shape future policies 
and practices to transform the child protection system into a child 
welfare system.
         what worked and what i learned through my experiences
    Here are my recommendations based on what I learned through my own 
experiences, from talking with other parents all across the country, 
and from reading as much as I could about policies and practices in 
this area.

        I.   Realign child welfare dollars to support a broad array of 
        community-based prevention and early intervention services to 
        strengthen families and keep them safely together. If dollars 
        are realigned to meet the immediate needs of families, we could 
        reduce the numbers of children being removed from home and 
        placed in foster care.

    I know from my own experience and working with other parents that 
many families who come in contact with the child welfare system could 
have avoided child welfare involvement with basic necessities, such as 
access to stable housing rather than shelters, quality child care and 
extended day care, and extracurricular activities to support an 
enriching experience for families who can barely meet their needs. 
There are serious gaps in services for many families. I could go on and 
on--there are so many services that can help families avoid contact 
with the child protection system. Some of the critical community-based 
services that families need include:

    b  Home visiting
    b  Early childhood and child care services
    b  Parent mentoring
    b  Parenting education
    b  Support groups
    b  Community cafes
    b  Respite care
    b  Family resource centers
    b  School-based programs
    b  Programs for families affected by substance abuse
    b  Housing assistance
    b  Medical services
    b  Transportation
    b  Mental health treatment
    b  Counseling
    b  Employment training and job placement
    b  Differential response and other support programs
    b  Services specific to domestic violence

    I do believe that if my family had been able to take advantage of 
preventive and early intervention community-based resources, my son 
would not have been placed in foster care. It is my belief that we need 
to shift our thinking from looking at foster care as a solution and 
instead focusing on strengthening families and keeping children at 
home.

    There are new and innovative demonstration projects being funded 
through title IV-E waivers in various jurisdictions, including New York 
City. This provides child welfare departments the flexibility to use 
some of their foster care dollars on other services to support and 
strengthen families. I, along with many other New York parents, believe 
that the title IV-E waiver funding would be most helpful to families if 
it were used to support prevention and early intervention programs such 
as Healthy Families and Visiting Nurse Programs.
  ii. use a supportive non-punitive approach to help families at risk 
                   safely keep their children at home
    I first learned about the Child Welfare Organizing Project (CWOP) 
through a very good colleague. I began to attend the CWOP Parent Self-
Help Support group and was moved by the many stories that parents 
shared about their struggles with the child protection system. That is 
when I first learned that I was not alone and that there were other 
parents dealing with similar challenges to mine. I later participated 
in the Parent Leadership Academy, graduated, and became a Parent 
Advocate. I worked with other families--teaching and encouraging them 
to advocate for needed services for themselves and their children in 
order to reunify with their children as quickly as possible. I also 
encouraged families to exercise their rights as parents. I have first-
hand experience every day with families not having adequate legal 
representation, foster care agencies not honoring visiting schedules, 
or siblings missing out on visitations due to a lack of resources. 
There are so many different types of gaps. At CWOP we educate the 
community, we speak at various universities and public and private 
organizations, and we mobilize parents to recommend policies and 
practices that promote positive and supportive approaches with families 
involved with the system. We need to ensure that parents who enter the 
child welfare system are treated with respect and that their name is 
not placed in a record system for years. This type of record generally 
has negative effects and can potentially impede potential employment 
options for a family.

    We need to educate our communities on how to help parents before 
they lose control. We need to raise more awareness about the everyday 
toxic stresses and challenges faced by many families and how to 
strengthen and build protective factors--this should be done in the 
same way that we currently focus on raising awareness about helping 
others who need help with substance abuse, critical illness, and other 
health-related issues. We need to develop educational campaigns and 
public service announcements to inform and educate the public and 
private sectors about the importance of building protective factors in 
families and communities and reducing risk factors.

    Today I bring to you the voices of many parents who have forever 
been changed by the child welfare system. Most families live in very 
stressful environments, facing everyday trauma based on their 
circumstances. Many are being penalized for living in conditions that 
are beyond their control. These families are also being told by CPS 
workers that they do not have the ability to protect their children in 
their own community. I believe that most parents want to be good 
parents but may need some help or assistance along with way.
 iii. partner with parents to work with other families before, during, 
     or after involvement with the child welfare and court systems
    We need to engage parents as partners in child abuse reporting, 
investigations, service planning, delivery of services, and evaluation.

    Parent partners (parents who have navigated the child protection 
systems), can effectively work with families to avoid entering the 
system. For parents already involved in the child protection system, 
parent partners can help parents effectively navigate all the services 
through child welfare, the public welfare system, courts, substance 
abuse treatment, housing, medical, and vocational/educational systems 
to help families reunify successfully and more quickly with their 
children.

    Parent partners can help build positive relationships and promote 
protective factors with families, since they have similar life 
experiences and parents often seem to feel more comfortable talking 
with them. Parent partners can also help reduce obstacles for parents 
to complete their service plans so that parents can reunify more 
quickly with their children.

    In conclusion, I ask you to take action to make sure ALL children 
at risk are protected by helping their families and communities build 
protective factors to ensure that children grow up in healthy, safe, 
and nurturing homes.

    Thank you for allowing me to share my own experience and the voices 
of many parents who struggle every day to do the best they can and be 
the best parents possible.

    I welcome any questions that you may have.

                                 ______
                                 
 Prepared Statement of Charles Nyby, Differential Response and Safety 
Operations and Policy Analyst, Child Welfare Program, Oregon Department 
                      of Human Services, Salem, OR
                    gaps in the child welfare system
    I was hired into the child welfare system in September 2002 at the 
age of 23, fresh out of college. I sought out this profession with a 
desire to help. I wanted to protect kids from parents who hurt them and 
help those parents change. Over the next 5 years of doing casework, I 
learned that most people don't like Child Welfare. This includes the 
families the system is trying to help. I learned that telling people I 
worked for Child Welfare was risky. Sometimes it meant hearing about 
how Child Welfare took kids when they shouldn't, that Child Welfare 
destroyed families. Or it meant hearing about a family where kids were 
being abused or neglected and nothing was being done, trying to answer 
why this was happening. I remember being in an airport waiting for a 
delayed flight talking with a group of travelers in the same situation. 
As the group was getting to know each other and asking about 
professions I shared that I worked for Child Welfare. A district 
attorney in the group stated, ``Oh, you're the people who take kids 
away just to return them to the same situation.''

    I found that many people didn't have faith in the child welfare 
system. They didn't feel like it worked. This was hard because I wanted 
to feel proud about my job. Supervisors and experienced workers who 
mentored me would say ``it's not a perfect system.'' I came to accept 
that, avoided telling people where I worked and did my best inside an 
imperfect system.

    I still treated people with compassion and did my best to support 
families. I carried in-home cases, but had no idea how to develop a 
safety plan. Most of my work was based around asking parents to make 
promises they wouldn't keep and removing kids when parents failed to 
comply with the court order. I didn't help people change. I tracked and 
monitored their compliance. I thought that since kids were in foster 
care and had been for years, I shouldn't try to return them home. The 
court had already changed the permanency plan. I just thought that's 
the way it stayed even when they ran back to those homes.

    Learning how to navigate larger systems to benefit families and 
children takes time. I don't believe anyone comes to front line 
casework totally prepared for the challenges this work presents. I 
learned how to navigate these types of cases through trial and error. 
Through this learning process I vicariously experienced the challenges 
kids and families involved in the child welfare system faced. I 
remember thinking that foster care should be better than where children 
were coming from. So, when I was asked to move kids two days after 
placing them my heart broke inside. When I was yelled at by foster 
parents because I didn't authorize a high enough special rate I felt 
defeated. When I picked up a teen boy who had been living on the street 
for 2 weeks, cold and barely eating because he liked that better than 
foster care I struggled to understand.

    I tried to overcome the system barriers as a worker, remain 
compassionate, abstain from judgment, and attend to self-care. But in 
all honesty, I felt helpless. I felt like the work I was doing was at 
times for naught. At times the heartbreak and challenges overwhelmed 
me. I thought of leaving the child welfare system many times and 
watched as friends and co-workers left to pursue higher education, 
become police officers, counselors, probation officers, hospital social 
workers, etc. And almost unanimously they decried how much better it 
was in their new job. This echoed the sentiment I would often hear from 
community partners when I worked with them, asking, ``How do you do 
your job? I could never do that job.'' I wondered, ``Am I doing the 
right thing by staying in the work?'' But there were moments of 
success, and those moments kept me going. I remember working a case 
involving a young single mother working to overcome a drug addiction 
while parenting two toddlers. I remember her determination as she did 
the leg work to find sustainable housing without any family support or 
involvement from the children's fathers while working and attending 
drug treatment. I talked with her treatment providers, who shared her 
progress and confirmed her sobriety. I recall admiring how she was 
completing her service plan while working and getting her kids to day 
care by public transportation. As she stayed sober with the pressure of 
parenting young children in adverse circumstances, I wondered where she 
found the strength. Being able to present her case in front of the 
judge and end her involvement with Child Welfare was the kind of 
success that motivated me to stay, despite my doubts and the challenges 
I was experiencing. This was the work that helped me feel like this was 
where I was supposed to be.

    So, I kept at it and did my best to have an impact on the families 
I worked with. I improved as a caseworker by gaining experience and 
grew by embracing the improvements Oregon made to the system. In 2007 
Oregon implemented a new practice model, the Oregon Safety Model. It 
promoted the least intrusive intervention, focused on child safety and 
used foster care as a last resort. This shift in practice in Oregon was 
significant for line workers and I really wanted to practice this 
model. I want to give you an example of how this shift impacted my 
work.

    I responded to a home, accompanied by a Certified Drug and Alcohol 
Counselor at the request of Narcotics Officers who raided a small 
trailer where heroin was being sold. The father had sent his 3 year old 
daughter to stay with a friend and hide his child. The father refused 
to provide her location to Law Enforcement or Child Welfare. The 
child's mother arrived on scene with her new boyfriend. She was 
homeless, dirty, and trying to kick her habit. She begged me to find 
her daughter and tears welled in her eyes as she promised she wasn't 
currently using and had just detoxed. She promised she could take care 
of her daughter and would do anything to work with Child Welfare to 
make sure her daughter would be safe in her care. For several days the 
father would not disclose the location of their child despite me 
meeting with him daily. So I was forced to involve the juvenile court. 
The father brought the child to court to avoid the agency asking for a 
pick up warrant. I recommended the little girl be placed with her 
mother at a homeless mission on the condition the mother provide 
urinalysis to prove she wasn't using, participate in drug treatment and 
take parenting classes. I also advised the court I would help her get 
housing. It wasn't a strong plan because it relied on work yet to be 
done, but I wanted to use foster care as the absolute last resort. I 
hoped the court would take a chance and trust that I would follow 
through as the caseworker. However, at the hearing the father continued 
making allegations of drug abuse against the mother and his attorney 
asked for their daughter to be placed in foster care. The child's 
attorney looked at me and said to the judge, ``I don't understand the 
agency's recommendation to place a child with a parent in a homeless 
mission.'' The judge responded, ``Neither do I,'' and ordered the child 
be placed in foster care. After the court hearing, I took a screaming 3 
year old child from her mother's arms in the court parking lot. Her 
mother was crying but comforted her daughter, soothing her and trying 
her best to reduce the trauma. I remember wishing I was able to 
describe the impact this type of removal has on a child, how the trauma 
of that removal is so great, it should only occur when safety can't be 
obtained through other means.

    For the next 60 days, I asked the mother and her new boyfriend to 
find housing. We discussed their progress to assure they could afford 
rentals they were looking into. I was able to secure funds to pay their 
move in costs. I talked with landlords in an effort to provide some 
security in renting to the couple. I visited their home multiple times 
to assure it was safe. I provided transportation vouchers so they could 
get to urinalysis testing and drug treatment. I referred them for drug 
and alcohol assessments and communicated with their treatment 
counselors. I referred them to parenting classes and discussed progress 
with that program. I had weekly contact to discuss progress in 
recovery, parenting and finding employment. I included the boyfriend 
and got him into drug treatment as well. When the case returned to the 
court, I asked the child be placed with her mother citing all the 
progress made sharing my observations of the mother's home. The child 
was returned to her mother despite the father's protest. The mother on 
this case sent me an e-mail a few years ago sharing that she had 
graduated nursing school, had another child, and thanked me for the 
work I did on behalf of her family. This case is a compelling example 
of what is needed to keep kids safely at home with parents that are 
working to address their significant challenges. It requires readily 
available services to build safety around the family. It takes a 
workforce with time to commit to moving through this system with the 
family, ready to support and provide accountability for parents. 
Without the time that most caseworkers don't have, available community 
services, and a skill level I didn't have until I was in the job for 
several years, families can't be as successful as their children need 
them to be. This is one case and there were others where the family 
wasn't as successful, but the implementation of the Oregon Safety Model 
provided a practice model that better supported families and Child 
Welfare workers get to better and safer outcomes for children. Ideally, 
the Federal child welfare financing structure should help States and 
caseworkers find and fund these prevention and earlier intervention 
services that we know reduce trauma for children and create success for 
families.

    I became a supervisor in 2007 and remained in that role until 2013. 
Being a CPS supervisor was the most challenging 5 years of my life. As 
a supervisor, I was rarely off duty. Even when I was away from work or 
took time off I was also on-call to my workers or the community if a 
worker didn't respond to an after-hours emergency. I felt like I owed 
my workers that much, to at least be available to them, because at 
times it felt like that was the only tangible support I could provide. 
This kept my mind thinking about work often. I wondered why certain 
workers or supervisors pushed back at avoiding foster care, why they 
didn't like in-home cases or non-court involved cases. I thought about 
why certain workers felt so uncomfortable trying to keep kids safe at 
home. I learned that sometimes it was fear, other times it was cynicism 
that decisions would not be supported by the agency, and sometimes it 
was doubt that families as challenged as some are could change.

    Caseworkers were afraid they would have the case that ended up on 
the front page of the paper or on the news, responsible for the child 
who was hurt or killed. We all knew that as child welfare workers this 
is what the public hears, that's what people pay attention to and those 
are the cases that get studied. In the field we didn't get requests 
from administrators to look at the case where we spent hours working 
with the family, their support system and organizing services in the 
community to keep kids safe at home. We received requests to look at 
the case where the child died where someone would go through every 
piece of work ever done looking for where things went wrong. I 
supervised several of these cases and it's daunting. So the cases that 
make up maybe 1-2% of the cases across the State ended up impacting 
workers on every other case they touched. Fear was real and in order to 
manage it I had to be willing to take it on for workers, to support 
them and shoulder the responsibility for work I wasn't doing.

    Over the years, more up-front services were made available and 
using these services became more engrained in practice. The agency 
continued moving in a direction that would reduce reliance on foster 
care as the primary service for child safety. We could provide in-home 
parenting classes, drug and alcohol specialists, and domestic violence 
advocates. We could refer for many other services, could provide 
payment for transportation, housing, and sometimes child care. Again, 
this type of practice change takes time and practicing the model with 
fidelity is important. It was critical that caseworkers bought into 
this model to ensure in-home support services weren't merely used as a 
way to gather more information, essentially as an extension of the 
investigation. Engagement couldn't just be superficial. In 2013 I left 
supervision for a job in Oregon's Central Office as a Differential 
Response Consultant (field trainer/coach). Oregon was beginning initial 
implementation of our model of Differential Response (DR). Differential 
Response is essentially, differentiating the front door of Child 
Welfare. It allows for an approach that is tailored to the needs 
presented by the family and is proportionate to the information 
reported to Child Welfare. Differential Response values the family as 
an expert on their challenges and allows the family to drive their 
plan. I remember the first DR meeting I attended was a Technical 
Assistance partnership with Ohio who had already implemented a DR 
system. At the end of the meeting they asked each person attending to 
offer closing thoughts. I stood up and said, ``I've worked in the child 
welfare system for 12 years and I've heard co-workers say that if they 
ever had a Child Welfare worker show up at their door, they would not 
let them talk to their kids. But after the past few days I just heard 
about a system that I would feel comfortable experiencing as a client, 
a system I would feel okay about my family having an assessment in, the 
kind of system I would feel proud to work in.''

    Part of what made me so excited about this system is not just the 
emotional appeal of engaging people differently and supporting children 
being safe at home, but also the tangible supports that came with 
Oregon's implementation. Oregon's DR system included an enhancement to 
our service array, identifying and filling the gaps in each community 
across the State. Legislation was passed establishing Strengthening, 
Preserving and Reunifying Families Programs across the State and they 
allocated general fund dollars to support the implementation. 
Caseworkers and supervisors were excited at the opportunity to have 
enhanced services available that allowed them to work with families 
differently. It felt like as a state, we finally understood and 
embraced what needed to be improved about the system so families could 
be successful.

    When DR implementation began in May 2014, I felt energized about my 
job in a way I never had. It finally felt like all the messaging about 
keeping kids out of the foster care system was being supported by the 
Child Welfare practice model. Workers could approach families with real 
solutions, offer tangible supports filling the gaps in the existing 
service array. It's not yet a magic solution but it gives hope, options 
and opportunities families didn't have before.

    As a DR field-coach I've sat in living rooms, talked with families, 
explained the differences in Child Welfare's response, and interviewed 
children in an effort to understand rather than for gathering evidence. 
I've given presentations to attorneys, judges, and CASAs. I've trained 
caseworkers and supervisors. I've helped developed systems in branches 
to support the work and I've watched caseworkers and supervisors change 
their practice. I've listened to families thank caseworkers for 
treating them with respect, for caring about their family, for 
empowering them. I've heard families offer solutions to problems and 
caseworkers say they can offer tangible support where the family needs 
help. Alone, this isn't new practice. Caseworkers have been doing this 
for years wherever they could. What is different are the options, 
tools, and solutions caseworkers can now easily access for families. In 
turn, families feel like they can get the help they actually need and 
people start to feel empowered. Parents ask for help rather than 
avoiding it. Caseworkers enjoy their job rather than feeling helpless. 
Supervisors have options to solve problems and our communities are 
seeing Child Welfare in a different way.

    I've experienced Oregon's child welfare system evolution during my 
13-year career, but it's been the past 2 years that I've seen 
significant impact on things in Child Welfare I truly never thought 
possible. Caseworkers have become helpers rather than just 
investigators. Caseworkers have more options, flexibility, and are 
empowered to be creative with families. They still take action to keep 
kids safe, but they have options and tools necessary to develop in home 
safety plans. If a parent doesn't have relatives or a support system, 
workers can provide them with a system navigator, a mental health 
specialist, addiction/recovery peer support, parent training, housing 
with case management, and more. All of these services can be in the 
family home, and they will travel to rural areas where services are 
scarce. Foster care is being viewed for what it was intended, a service 
of last resort to keep children safe. If a family has moderate to high 
needs but the children are safe, the family can receive contracted 
services for 3-6 months without the agency needing to intervene. 
Workers can now provide earlier intervention services in an effort to 
prevent families from returning to the child welfare system.

    Again, change takes time and people go through their own process 
with change. It's my opinion that in order to continue progress with 
child welfare reform, changes are needed in the way child welfare 
systems are funded. We need to be able to support families to safely 
parent their children and we need the ability to bring services to the 
family where they are in their process of change. Systems need 
flexibility just like families do. Foster care is an essential element 
of every child welfare system and it is a safety service that should 
only be used when there are no other options. Oregon has had a title 
IV-E Waiver for a number of years which allows the State to spend its 
Federal foster care dollars more flexibly. Currently, any waiver 
savings are matched and used to finance the expanded service array. 
This has allowed Oregon to increase the service capacity in communities 
as well as increase the array of services available for families. I 
understand the Waiver authority is scheduled to expire in 2019. I worry 
that without a legislative change, our ability to invest in these 
front-end foster care prevention services will be reduced.

    Funding child welfare primarily through foster care placement 
doesn't support families or the system changes Child Welfare programs 
are working to implement.

    I want to close by saying my journey as a line worker and 
supervisor is an experience I would not trade. Working at the line 
level has helped me intimately understand the challenges of families 
and children in our community. It trained me in the challenges 
presented by the system and it has helped me help families see 
possibilities. And I understand that working for Child Welfare will 
always be a difficult job with great reward.

    Thank you for your time and commitment to making our system more 
responsive to the changing needs of families and children.

                                 ______
                                 
 Prepared Statement of Ann Silverberg Williamson, Executive Director, 
         Utah Department of Human Services, Salt Lake City, UT
    Chairman Hatch, Ranking Member Wyden, and Members of the Senate 
Finance Committee, it is a privilege to appear before you representing 
the Utah Department of Human Services. Thank you for the opportunity to 
testify on our child welfare practice. In Utah, we value not only what 
is proven to be in the best interest of children, youth and families, 
but also what is cost effective. Thank you for your leadership to 
prioritize this discussion.

    Several facts about Uta's child welfare model illustrate the 
strengths of our approach:

    With one of the nation's highest percentages of minors per capita, 
        Utah has one of the lowest entry rates into the foster care 
        system: 3.1 for every 1,000; the national average is 6.1 for 
        every 1,000. This demonstrates the existing focus we have on 
        family, community and prevention.

    The average length of stay for children in foster care is 10.4 
        months; the national average is 13.4 months, emphasizing our 
        interest in safely reunifying and finding kinship care.

    Twenty-seven percent of children in the State's foster care system 
        are adopted; 19 percent is the national average illustrating 
        Utah's commitment to providing children a permanent home to 
        grow in safely.

    The total child welfare annual budget is $114 million State and 
        $57 million Federal.

    Following the changes that allowed Utah to successfully exit a 
settlement agreement; our child welfare system was touted for the 
effectiveness of our practice. We incorporated family team meetings and 
rigorous qualitative case and process reviews into our work. We 
established an independent Ombudsman's office and a Fatality Review 
Panel in addition to other legislative and community engagement forums 
to assure transparency and timely services to those in need.

    In recent years, we identified the need to build equally effective 
in home supports to safely keep children with their families, reducing 
the need for foster care.

    Regardless how well a foster care system operates, the fact remains 
that children are best served in homes, surrounded by family, familiar 
schools and community. Ask any child and they will tell you that a home 
with loving adults is their heart's desire.

    The voice of one brave young woman, who aged out of the foster care 
system prior to our recent changes, underscores the opportunity we have 
to do better. While her narrative is one of triumph, it is rich with 
lessons for those of us able to influence the system.

    As a young child, Beth was removed from her mother's care for the 
neglect that resulted from her mom's untreated mental illness. Instead 
of remaining within her home with parenting supports, behavioral health 
care, and coordinated community services, this child was swept into a 
perilous journey between multiple foster homes, engagement in the 
juvenile justice system, truancy, periods of homelessness--the tragic 
symptoms of Beth's anger, resentment, and trauma of being without her 
family and her home.

    When asked why she continued to run away from foster homes, Beth 
plainly said it was to get back to her mother. When asked why she 
behaved so poorly, she spoke with equal candor that she hated feeling 
out of control and without a voice. Fortunately for Beth, the guiding 
influence of her final foster father who convinced her of the 
importance of education, combined with the wisdom of her caseworker who 
motivated her to seek more for herself than the path she was on, this 
courageous young woman graduated from high school, got a job with child 
welfare after college and is now in law school. Hers was a rare success 
story in that era. Her insights are profound and motivating to us today 
because we know we can do better. We can avoid this kind of human and 
financial cost, and as the measured results our current practice prove, 
we are doing so.

    Poet Maya Angelou's words concisely describe Utah's commitment to 
serve children and their families: ``Do the best you can until you know 
better. Then when you know better, do better.''

    With research, social science discoveries and evidence of trauma-
informed care, Utah believes we can better serve the short and long 
term interests of those in need of a child welfare system. Supporting 
safe care for children in their homes without separating them from 
family in foster care is less traumatic and less costly. Additionally, 
a multi-generation family service approach proves more effective in 
breaking cycles of dependence on prolonged, expensive government 
programs.

    The opportunity to apply for a title IV-E waiver was ideal for Utah 
because it allows us to invest in solutions. Our demonstration project 
called HomeWorks was initiated in late 2013 and is in the process of 
being replicated statewide through this year.

    Without the waiver, the Federal IV-E dollars are limited to 
supporting foster care services. Now, HomeWorks is allowing us to 
invest Federal funds toward supports that have much greater value--not 
only to children and youth by keeping families whole--but also to the 
tax-payers receiving a greater return on the dollar.

    For the average cost of serving one child in a foster care home for 
1 year, we are able to serve 11 families through HomeWorks practice and 
supports. For the average cost of serving one foster care child in a 
residential group setting for 1 year, we are able to serve 34 families 
through HomeWorks. These are the compelling proofs of the sound 
business of this practice, while the humanitarian merits of investing 
in services to keep children safe with family make this approach 
essential.

    For children and youth whose safety can be attained with specified 
family services in the home, we need not commit them to foster care and 
the cascade of potentially negative consequences that can follow.

    One of our HomeWorks staff worked recently with the family of Jim, 
a young teen who was on track to enter foster care. He was failing in 
middle school, had repeated aggression toward his elderly parent--a 
single grandmother who raised him from infancy--and behavioral 
outbursts causing concern about harming himself or others. Exhausted 
and uncertain, Jim's grandmother prepared to relinquish her child.

    Applying the HomeWorks model of practice has preserved him safely 
in his home, has offered peer parenting to the grandmother, additional 
extended family are more involved in care and together a school 
counselor and behavior therapist are working in a coordinated way to 
support Jim.

    This is one of more than 1,000 HomeWorks cases that the waiver has 
allowed us to serve in this way. We are seeing daily the positive 
outcomes that result. Rather than providing a temporary fix, we work 
with families to achieve long-term behavioral change that reduces risk 
of repeat maltreatment and ongoing involvement with government 
interventions.

    The evidence based tools and strategies of HomeWorks include:

    Structured Decision Making at intake.
    Advanced professional approach to caseworker training.
    Consistent use of the child and family assessment.
    Increased frequency and length of staff time with the family in 
        addition to community supports for sustained family resiliency.

    Early results are positive.

    In the first region to pilot HomeWorks, we have experienced a year 
over year growth rate of 11 percent for in home services while the 
statewide year over year growth was 3.6 percent.

    Also, the same region has decreased its population of children in 
foster care by 4.4 percent from the prior year, compared to the State's 
average 3 percent reduction.

    We respect the temporary nature of a waiver and the time-limited 
opportunity to learn from what States are demonstrating. Utah is 
focused on shoring up the practices we have begun; therefore, the 
Family Stability and Kinship Care Act proposed by Ranking Member Wyden 
is an encouraging measure.

    We would like to see financial investment in child welfare practice 
informed by evidence. The key components of the proposed bill, 
including the target population, eligibility determination, service 
offerings and accountability for outcomes reinforce Uta's experience. 
Federal statute that emphasizes early intervention, family development 
and local partnerships that cultivate community ownership for a child's 
well-being will strengthen this country's child welfare system and 
benefit our citizenry in total.

    We seek to partner with you to finance a system that strengthens 
families and is accountable to the outcomes of sustained child safety, 
permanency and well-being. We look forward to the alignment of public 
child welfare policy, finance and practice for the greater public good.

    Thank you.

                                 ______
                                 
    Question Submitted for the Record to Ann Silverberg Williamson 
                          by Hon. Rob Portman
    Question. How can a uniform definition of ``therapeutic foster care 
services'' promote better quality of care and also more accountability 
in the training of staff and foster care parents?

    Answer. The Utah Department of Human Services believes that passage 
of a uniform, national definition would be helpful to public child 
welfare jurisdictions and to vulnerable families and kin. 
Standardization of therapeutic foster care (TFC) practice with 
accompanying consistent expectations will guide better results for 
children, youth, and families.

    A uniform definition will provide baseline requirements and quality 
upon which States can individually build and expand if they wish.

    S. 429 would benefit our State in two key ways:

        1. Identify a core of basic services that are essential to 
        serving youth identified as eligible by age and medical 
        necessity to be in need of therapeutic foster care. This would 
        provide consistency across States as to what services are 
        expected a part of the TFC continuum.

        This would require providers of TFC services to provide 
        specialized training and consultation in the management of 
        children with mental illness, trauma, other emotional or 
        behavioral disorders, medically fragile conditions, or 
        developmental disabilities to biological families, kin, and 
        foster parents providing this type of family-based specialized 
        care.

        2. Requiring national accreditation of any TFC provider agency 
        in order to access Medicaid reimbursement provides an 
        objective, professional baseline equalizing a standard of care 
        across all States for youth needing TFC care. Accreditation of 
        quality from providers will provide parity for TFC services and 
        protection for those accessing the services, just as would be 
        required of physical health experts and quality health plans.

    Utah is fortunate to have fewer youth in foster care with a shorter 
stay than the national average. The ability to provide specialized 
support for families (whether they be biological, kinship, or foster 
homes) to address the complex impact of trauma and behavioral health 
disabilities these families and youth endure can only strengthen our 
commitment to their well-being when it is necessary for children to be 
removed from their homes and placed in foster or kinship care.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This morning in America, there's likely to be a single mom with two 
kids, multiple part time jobs, and a big worry. She works long hours to 
provide for her family, but even then, it's a struggle to pay the bills 
and keep food on the table. And because her work schedule changes week 
to week, she's forced to leave her children unattended at times. A 
neighbor might place a concerned call to Child Protective Services. 
Once that happens, social workers have to choose between two bad 
options: breaking up the family, or doing nothing at all to help.

    Here's why that needs to change. Whenever you ask anyone who has 
been through the child welfare system about what could have helped them 
the most, the answer is often, ``helping my mom . . . helping my dad . 
. . helping my family.'' But that's just not in the cards when social 
service workers have nothing to offer but foster care.

    Today, kids predominantly wind up in foster care because their 
families, like that single mom, are caught in terribly desperate 
circumstances that lead to neglect. Most youngsters in foster care 
aren't there because of physical or sexual abuse.

    Maybe mom or dad needs help covering bills for a month, substance 
abuse treatment, or connections for child care. Oftentimes, a 
youngster's aunt, uncle, or grandparents could step up, especially if 
they have some assistance. In my judgement, every one of those avenues 
should be explored before breaking a family apart. In fact, it can save 
resources in the long-run without compromising on safety.

    Back in the mid-1990s, there was a debate over whether sending kids 
to orphanages was the right idea. And I saw an opportunity for our 
child welfare policies to break into the enormous, untapped potential 
of kin. So I authored the Kinship Care Act, which said that immediate 
relatives--aunts and uncles or grandparents--who met the right 
standards would have first preference when it came to caring for a 
niece or nephew or grandchild. It became the first Federal law of its 
kind.

    Now in 2015, I see an opportunity for Congress to go even further 
in helping kids thrive with kin. It begins with letting States run with 
fresh policies that will support families when they've fallen on hard 
times. There's already proof that waiving States out of the old-
fashioned Federal system can produce results.

    My home State of Oregon has a new strategy called ``Differential 
Response,'' which is all about recognizing that every kid and every 
family needs a different type of support. The old, two-option system--
foster care or nothing--doesn't cut it, so Oregon is going to take a 
more tailored approach to help families out. The Finance Committee is 
extremely fortunate to have Chuck Nyby from the Oregon Department of 
Human Services here today to talk more about where our State is headed.

    Strong families mean strong kids. That's the bottom line. And 
tomorrow, I'm going to introduce legislation called the Family 
Stability and Kinship Care Act that's built around that principle. The 
bill will help make sure that more States are able to adopt fresh 
strategies like Oregon's.

    Now, to be clear, this is not in any way a condemnation of foster 
care. For a lot of kids, going into foster care is a life-saver. It 
means they're in a safe place where they can grow up and thrive. What 
this is about is giving kids the best possible chance to grow up in 
safe, healthy environments, and that often means keeping families 
together.

    I want to thank Chairman Hatch for holding this hearing. He's done 
a lot of tremendous work on child welfare over the years on a 
bipartisan basis, and I'm looking forward very much to continuing our 
partnership.

                                 ______
                                 

                             Communications

                              ----------                              


                 Letter Submitted by Janell Balderamos
Janell Balderamos
8729 Graves Avenue Apt #14E
Santee, CA 92071

Hearing Name/Date: A Way Back Home: Preserving Families and Reducing 
the Need for Foster Care

August 4, 2015

Dear Senator Hatch and Senator Wyden,

I am writing in support of the bipartisan legislation and review of the 
foster care system in this country. The United States of America's 14th 
amendment states: ``No state shall make or enforce any law which shall 
abridge the privileges or immunities of citizens of the United States; 
nor shall any state deprive any person of life, liberty, or property, 
without due process of law; nor deny to any person within its 
jurisdiction the equal protection of the laws.'' Each and every citizen 
of this country has a right to live a life with liberties afforded to 
them. When a child is removed from a parent's home, many times, it 
occurs without due process of the law resulting in catastrophic results 
that impact their families and their rights under the 14th amendment. 
How can a country that espouses liberty, allow such travesties to 
happen and expect the rest of the free world to follow along? We need 
to do better in assisting family's in maintaining their children in 
their homes, by providing much needed support. We need to stop 
relegating our responsibilities to agencies ``too big to fail.'' 
Citizens of this free country deserve better oversight, action, 
compassion and innovation from their elected officials. Children need 
their families!

``There are risks and costs to action. But they are far less than the 
long-range risks of comfortable inaction.''--JFK

Janell Balderamos

                                 ______
                                 

                    Children's Hospital of Wisconsin

                           Community Services

               620 South 76th Street, Milwaukee, WI 53214

                             (414) 453-1400

                          Fax: (414) 453-2538

``A Way Back Home: Preserving Families and Reducing the Need for Foster 
                                 Care''

               United States Senate Committee on Finance

                             August 4, 2015

                        Statement for the Record

              Amy Herbst, Vice President, Child Well-Being

                    Children's Hospital of Wisconsin

Chairman Hatch and Ranking Member Wyden, thank you for holding this 
important hearing on preserving families and reducing the need for 
foster care.

Children's Hospital of Wisconsin Community Services (Children's) is the 
largest not-for-profit, community-based child and family serving agency 
in Wisconsin. Established in 1889, we provide a continuum of care to 
more than 15,000 children and families annually. This includes family 
preservation and support, child and family counseling, child welfare, 
child advocacy and protection, and foster care and adoption.

Children's is one of two non-profits that provide all case management, 
out-of-home care, and intensive home counseling in Milwaukee, where 33 
percent of the State's foster care population resides. We are also the 
largest provider of treatment foster care in the State, contracting 
with 33 counties, and are proud to report the best optimal outcomes 
when it comes to reunification, adoption or guardianship. Additionally, 
Children's has partnered with the State through our Children's 
Community Health Plan to implement a medical home program for children 
in foster care in six southeastern Wisconsin counties.

We are committed to healthier children and families, and improving the 
trajectory of their lives. That is why we serve the holistic needs of a 
child and family through comprehensive, coordinated systems of care 
that address the physical, mental, and social well-being of children.

We strongly agree that it is important to intervene with high-risk 
families as early as possible in order to avoid costly foster care 
placements and ensure a healthy trajectory for children and families. 
At Children's we have invested in several programs aimed at doing just 
that. In 2014, we provided parenting training and support to over 4,000 
individuals at our Family Resource Centers located throughout the 
State; we served over 400 individuals through our Community Response 
program that provides service coordination and family support to 
families at risk for child abuse and neglect; and served over 600 
families through our Home Visiting Program that provides 
individualized, home-based parenting education and support.

We strongly support changes to the child welfare financing model that 
currently favors one intervention, foster care, to one that provides 
more flexibility and funding for targeted evidence-informed 
preventative services for children and families. We believe that if we 
intervene early we can promote healthy and stable families that result 
in better outcomes for children, society, and taxpayers.

To that end, Children's supports the Family Stability and Kinship Care 
Act which would provide support for front-end family services to help 
stabilize families and keep kids out of foster care and safe at home or 
with kin. We recruit and provide kin placements and believe family 
connections are important for the child's long-term well-being.

We are also encouraged by statements provided at the hearing in support 
of the Family-Based Foster Care Services Act of 2015, which would 
establish a Federal Medicaid definition for Therapeutic Foster Care 
(TFC). This legislation will ensure that children with significant 
behavior or health challenges continue to have access to 
individualized, home-based, therapeutic care, and that biological 
parents and kinship caregivers are eligible for the same specialized 
training and consultation that treatment foster care parents receive. 
We hope that the Committee will include this bill in any bipartisan 
foster care legislation.

Finally, we agree with testimony presented that our child welfare 
finance system should aim to strengthen families and be held 
accountable to the outcomes of sustained child safety, permanency and 
well-being. Specifically, we hope the Committee will consider ways to 
prioritize evidence-informed well-being focused interventions.

We know through evidence-based research that children who experience 
neglect, violence or other adverse situations are increasingly likely 
to face a lifetime of complicated physical and emotional health 
challenges. For example, children who have experienced maltreatment 
are:

    Twenty-five percent more likely to have mental health problems, 
        low academic achievement, substance abuse and experience teen 
        pregnancy.\1\
---------------------------------------------------------------------------
    \1\ Barbara Tatem Kelley, Terence P. Thornberry, Ph.D., and Carolyn 
A. Smith, ``In the wake of childhood maltreatment,'' Office of Juvenile 
Justice Bulletin (1997).
---------------------------------------------------------------------------
    More likely to be obese, with 12 percent considered severely 
        obese.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    More likely to attempt suicide, with 18 percent having attempted 
        suicide at some point.\3\
---------------------------------------------------------------------------
    \3\ Anda Felitti, et al., ``Relationship of childhood abuse and 
household dysfunction to many leading causes of death in adults'' (ACE 
Study) American Journal for Preventative Medicine (1998) 14(4).
---------------------------------------------------------------------------
    Eleven times more likely to be arrested for criminal behavior as a 
        juvenile.\4\
---------------------------------------------------------------------------
    \4\ English, et al., ``Another look at the effects of child 
abuse,'' National Institute of Justice Journal (251) (2004) 23-24.
---------------------------------------------------------------------------
    Shown to develop post-traumatic stress disorder at rates of 36 
        percent or higher.\5\
---------------------------------------------------------------------------
    \5\ P.T. Ackerman, J.E. Newton, W.P. McPherson, J.G. Jones, and 
R.A. Dykman, ``Prevalence of post traumatic stress disorder and other 
psychiatric diagnoses in three groups of abused children (sexual, 
physical, and both),'' Child Abuse and Neglect (1998), 22:759-774.
---------------------------------------------------------------------------
    More likely to exhibit low self-esteem, aggression toward others 
        and risky sexual behaviors.\6\
---------------------------------------------------------------------------
    \6\ J. Briere and M. Runtz, ``Differential adult symptomatology 
associated with three types of child abuse. Child Abuse and Neglect 
(1990), 14:357-364.

While outcomes of programs for at-risk children have improved over the 
years, more must be done to address the long-term, scientifically 
proven effects that maltreatment has on a child's physical, emotional, 
---------------------------------------------------------------------------
social, and cognitive development.

At Children's, through our Strong Families, Thriving Children work, we 
provide a comprehensive child and family well-being model--customized 
to meet each family's unique needs--which focuses on healthy 
developmental functioning combined with a nurturing environment that 
helps children thrive into adulthood.

Our program consists of evidence-based interventions and tailored 
plans, emphasis on child development outcomes, and strength-focused 
comprehensive functional assessments. The program leverages new 
interventions designed to break the cycle of maltreatment, starting 
with more comprehensive trauma assessments that pinpoint priority areas 
for our services, individualized plans, and a more comprehensive 
approach to supporting families we serve.

The ultimate goal of Strong Families, Thriving Children is to improve 
long-term outcomes for at-risk children including: healthy functioning, 
resilience, positive relationships, self efficacy and sufficiency, 
economic stability, and reduced public assistance.

We believe strongly that in order to ensure healthy and functioning 
children and adults, safety and permanency are not enough. Addressing 
child well-being by meeting the child's development milestones is 
necessary to create better adult outcomes. In fact, research has shown 
that a comprehensive well-being approach leads to positive post-foster 
care outcomes and reduces the average lifetime ``cost'' of 
maltreatment.

Currently, there is little incentive in the child welfare financing 
system to provide the type of interventions that are necessary to 
better position children to thrive into adulthood. Well-being is not 
defined in Federal statute and there are not consistent measures 
related to child and family well-being. We believe that a child welfare 
system that prioritizes well-being will lead to better outcomes for 
children, society, and taxpayers.

We strongly support your work to improve the lives of at-risk children 
and families and hope to serve as a resource and partner as the 
committee works to advance legislation.

                                 ______
                                 

                             THE DONALDSON

                           ADOPTION INSTITUTE

             Statement of the Donaldson Adoption Institute

                    Senate Finance Committee Hearing

        ``A Way Back Home: Preserving Families and Reducing the 
                         Need for Foster Care''

                             August 4, 2015

The Donaldson Adoption Institute (DAI) respectfully submits this 
statement regarding the Senate Finance Committee's August 4, 2015 
hearing, ``A Way Back Home: Preserving Families and Reducing the Need 
for Foster Care.''

DAI appreciates the Committee's continuing efforts to ensure the 
safety, permanency and well-being of America's children and youth. 
Chairman Hatch, Ranking Member Wyden, Committee members and staff are 
to be commended for convening a bipartisan hearing to understand parent 
and youth experiences and needs, as well as to share promising 
practices that provide families the tools they need to succeed.

Since 1996, DAI has worked to improve the lives of children and 
families across our country and around the world through research, 
education and advocacy that has led to better laws, policies, 
practices, and perceptions. To achieve our goals, we investigate the 
issues of greatest concern to first/birth families, adopted persons, 
adoptive/foster families, the people who love them, and the 
professionals who serve them. We then determine best practices and 
offer policy recommendations working with a broad array of partners in 
educational efforts and advocacy campaigns.

DAI supports the Family Stability and Kinship Care Act's (S. 1964) 
cost-effective investments in key child welfare objectives--enhancing 
family safety and stability, enabling kinship placements, and promoting 
children's well-being, while preventing unnecessary foster care 
placements and decreasing foster care lengths of stay. We are grateful 
to Senator Wyden for seeking input on his May discussion draft, 
carefully tailoring the current legislation, and incorporating 
recommendations from DAI and other child welfare organizations into S. 
1964.

In general, DAI welcomes the bill's title IV-E funding for family 
preservation services as a safe alternative to foster care, focus on 
promising and evidence-based programs, and attention to outcomes, in 
addition to the title IV-B increased, mandatory Promoting Safe and 
Stable Families investment in community-based services to support 
parents and children. In particular, DAI applauds the bill's specific 
inclusion of adoptive/guardian family eligibility for title IV-E 
interventions and minimum title IV-B spending requirement for adoption 
promotion and support to prevent instability and sustain adoptive 
families.

DAI looks forward to the committee's consideration of S. 1964 in the 
Fall. Thank you for your efforts to advance child welfare reform and 
empower parents and children, Please feel free to contact me with any 
questions or for additional information.

April Dinwoodie
Chief Executive
(212) 925-4089
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6405000d0a130b0b000d012405000b14100d0b0a0d0a17100d101110014a0b1603">[email&#160;protected]</a>

Donaldson Adoption Institute
120 E. 38th Street
New York, NY 10016

                                 ______
                                 
                   Letter Submitted by Deborah Perin
Deborah Perin
7236 Parkplace CT NE
Keizer, Oregon 97303
August 5, 2015

Senator Orrin Hatch and Senator Ron Wyden
Senate Committee on Finance
Room SD-219
Dirksen Senate Office Building
Washington, DC 20510-6200

Hearing held August 4, 2015:

``A Way Back Home: Preserving Families and Reducing the Need for Foster 
Care.''

Dear Senator Orrin Hatch and Senator Ron Wyden,

    I am writing to you concerning your hearing, ``A Way Back Home: 
Preserving Families and Reducing the Need for Foster Care.'' I would 
first like to express my heartfelt appreciation for your desire to keep 
families together and to improve Child Protective Services across the 
United States. As you pointed out in your hearing mentioned above, 
family preservation is extremely important to a child's well-being.

    It goes without saying, that families across the United States are 
depending on you to act wisely on behalf of their children. Families 
are also depending on you to respect the important place each child 
holds within their respective natural families. That being said, I 
would like to share with you my perspective on how Child Protective 
Services currently runs, and how that organization currently treats 
natural families.

    The best way I can explain the operation of Child Protective 
Services is to use an analogy and so, that is what I will do. Child 
Protective Services currently runs like a business full of commissioned 
sales people. Within this business, The Senate Finance Committee 
ultimately represents a manufacturer, which sets incentive goals that 
the commissioned sales people (caseworkers) are expected to attain. 
Each of the directors for Child Protective Services represents 
storeowners, and these storeowners tell the store managers (each 
caseworker's supervisor) to obtain commodities (children) to take 
advantage of the incentives offered by the manufacturer (the Senate 
Finance Committee). The storeowners know, that besides the funding 
offered for placing the commodities (children) in foster care, there is 
additional funding offered when the commodities (children) are adopted 
out to new homes. Therefore, these storeowners strongly encourage the 
store managers to push the sales staff (caseworkers) to attain their 
sales goals. How are these sales goals met? By conjuring up weak 
excuses to take and keep children away from their natural families.

    Our federal government states the sales goals very clearly. These 
sales goals say, obtain more children and receive Federal funding. 
Obtain more children, and adopt those children out to receive 
additional funding. Increase last year's adoption numbers and receive 
additional funding, as well as increase your chances of earning an 
adoption excellence award.

    In other words, when you put a monetary value on removing children 
from their natural families, and you incentivize adoption numbers, you 
are setting ``sales goals'' for Child Protective Services. When you 
reward CPS with money when their yearly adoptions numbers increase from 
the previous years, you are setting ``sales goals'' for Child 
Protective Services. If you really want families to stay together, then 
your ``sales goals'' need to change to reflect what you want to see 
happen within CPS. If you continue to fund CPS the way that you have 
funded them for the past almost 2 decades, then the same problems will 
remain. In addition, if you just add more money to the mix as you have 
done with ``The Family Stability and Kinship Care Act,'' but you do not 
greatly decrease or eliminate the funds supporting child removals and 
adoption, you will see no significant positive changes within Child 
Protective Services. Child Protective Services does not act in the best 
interests of the children. Instead, their actions are based on where 
the Federal funds are allocated and right now, your funds are heavily 
allocated toward taking children from their natural parents and 
adopting them out.

    I propose these changes . . .

    Give Child Protective Services much needed oversight. For some 
        unknown reason, a large government organization has been given 
        large amounts of money and a tremendous amount of power, but no 
        oversight. When in history has a large amount of money combined 
        with unchecked power worked out well?

    Consider incentivizing States for a job well done on successful 
        family stabilizations or successful quick reunifications 
        instead of rewarding States for taking children and adopting 
        them out.

    Make the Federal funding under ``The Family Stability and Kinship 
        Act'' exceed any funding which encourages a child's removal 
        from their natural family and subsequent adoption. This funding 
        difference needs to be significant or kids will continue to be 
        unnecessarily taken from their natural families and adopted out 
        in order for States to take advantage of Federal funds.

    Make it clear by not only your wording, but also in the amount of 
        funding you allocate to Child Protective Services and be 
        explicit as to what behaviors you want prioritized. Clearly 
        state what the best options for a child are in a clear concise 
        order.

    For instance:

    (1) The child stays with their natural parents and the family is 
        offered stabilization services while they stay together as a 
        family unit (largest amount of Federal funds).

    (2) Place the child with a family member until a reunion is 
        possible and then reunite the child with his or her natural 
        family quickly (second largest amount of Federal funds)

    (3) Offer legal guardianship for the child who cannot return home 
        in the short term (e.g., parental drug rehab), but has a family 
        member willing to care for them (third largest amount of 
        Federal funds).

    (4) Adoption by a family member, meant for the rare circumstance 
        where a child would end up in foster care permanently (fourth 
        largest amount of Federal funds).

    (5) Adoption by a non-family member, meant for the rare 
        circumstance where a child does not have an available relative 
        that can adopt them and the child would end up in foster care 
        permanently (fifth largest amount of Federal funds--lower 
        funding than #4 so relatives are not overlooked).

      I would like a point something out about the above statement. If 
        CPS is really about the children and a child cannot go home in 
        the short-term (e.g., parent is in rehab) why not focus on 
        legal guardianship with a family member instead of adoption? 
        With legal guardianship, the child's natural parents could 
        reconnect with their child once the parent has resolved their 
        issues. Keep in mind that many adoptees, struggle with the fact 
        that their adoptive parent's names replace their natural 
        parent's names on their birth certificate because it makes them 
        feel like property and it makes them feel like their lives were 
        unnecessarily rewritten. There may be that rare circumstance 
        where a child would end up in long-term foster care and in that 
        case, adoption may be the best solution for that particular 
        child, but it should not be the current catchall of 15 out of 
        22 months in care and then automatic TPR and adoption.

    Child Protective Services needs to respect a natural parent's 
        constitutional rights, as they currently do not.

    Stop Child Protective Services from putting individuals on their 
        State Child Abuse Registries whenever they feel like it. 
        Currently, anyone can be added to his or her States Child Abuse 
        Registry by anyone working for CPS. A person is added to this 
        registry without due process, and often without being notified 
        that their name was added to the registry. Did you know that 
        just last month the State of Tennessee made their child abuse 
        registry open to the public? I have also read this year, that 
        there are people pushing to turn the child abuse registries in 
        each State, into a national database, which would be open to 
        the public. If anyone can be added to that list without due 
        process, what form of slander is that? Currently, people on 
        their State's Child Abuse Registry are denied work in schools, 
        adult care homes, day care centers, and the like. If that list 
        is made public, does that mean that an individual's character 
        will be tarnished to the point that they will lose their job 
        even if the job has nothing to do with working with children?

    Give parents due process when their parental rights are on the 
        line. A criminal gets a jury of 12, but a parent who is up 
        against losing their parental rights does not. Why does a 
        criminal deserve more rights than a parent who is up against 
        losing their parental rights forever? Repeatedly, I have read 
        stories of parents who won in criminal court (if criminal 
        charges were filed against them), but they lost their children 
        in the juvenile dependency court. How is that possible? It is 
        possible because the directors and supervisors within Child 
        Protective Services love the Federal funds they receive, and 
        they will do whatever they can to reap those benefits.

    Require that Child Protective Services obtain three additional 
        doctors' opinions when one doctor claims that a child has been 
        abused. In addition, require that Child Protective Services 
        give equal weight to any doctor's opinion that the child's 
        natural parents offer, especially if the doctors are equally or 
        even more qualified than the original diagnosing physician.

    * As a side note: Child Protective Services should not be allowed 
        to directly pay these additional three doctors to give their 
        professional opinions as neutrality is important, and that 
        quality is severely lacking within CPS right now.

      One tragic and widespread problem within Child Protective 
        Services involves their acceptance of one doctor's diagnoses of 
        child abuse. CPS does not seek a second doctor's opinion at any 
        time before or after a child is removed from their natural 
        parents home. Instead, CPS workers automatically assume that 
        the parents are guilty due to that one doctor's opinion, and 
        they demand that the parents prove that they are innocent. In 
        addition, Child Protective Services fights any second or third 
        doctor's opinions when the child's natural family tries to 
        defend their innocence after their child has been taken from 
        them. This happens even if those additional doctors are equally 
        or more qualified than the original diagnosing physician.

      This behavior within Child Protective Services has caused child 
        abuse numbers nationwide to appear as though they have 
        skyrocketed and give the illusion that more and more child 
        removals are necessary. If in our individual lives, we seek a 
        second or third opinion for our own health, why then would just 
        one doctor's opinion always be right when it comes to an 
        accusation of child abuse?

      If Child Protective Services were truly working in the best 
        interest of children, why would they not welcome new 
        information? Is it more important to get to the money The 
        Senate Finance Committee offers, or to get the absolute truth 
        and make sure they are doing the right thing? Again, Child 
        Protective Services acts this way because money is attached to 
        the removal and adoption of each child.

      Just think of how much money our government would save by triple 
        checking whether a child should be put into the foster care 
        system or not. The additional cost of those three doctors' 
        opinions, would serve three purposes.

      (1)  We would know if a child had been abused or not.
      (2)  We would be sending misdiagnosed children back with their 
families quickly.
      (3)  We would be working in the best interests of the child, not 
in the best interest of each State's pocket book.

      Often people who have never been investigated by Child Protective 
        Services criticize CPS because from their standpoint, CPS did 
        nothing to protect a certain child in their neighborhood. On 
        the other hand, people who have been involved with Child 
        Protective Services complain that they grab children too 
        quickly, and they often grab children who were not abused in 
        the first place. From the outside, this would seem like a 
        deeply concerning conundrum. However, is this truly a mystery 
        or a well thought out plan?

      After understanding the current pay structure for Child 
        Protective Services and realizing that it highly favors 
        removals and adoption, and after reading the never-ending 
        stories of numerous parents, I think I may have an answer to 
        this conundrum. I believe that we do have a situation where a 
        small number of children are in dire need of removal from their 
        abusive or severely neglectful parents and they do not get the 
        help they need. I also strongly believe there is much larger 
        number of children who are unnecessarily taken from their 
        natural parents.

      I believe there are two reasons why these two things happen . . .

      Reason #1--No one will be able to save every single child all the 
        time from every truly abusive or severely neglectful situation. 
        It is just not logical or humanly possible.

      Reason #2--The majority of CPS funding highly supports child 
        removals from their natural parents and subsequent adoption. 
        Therefore, it is more beneficial to Child Protective Services 
        to take children who are adoptable and not work so hard to help 
        those children that they deem to be less adoptable.

      Which kids are highly adoptable? The children of innocent parents 
        are highly adoptable. The highly adoptable children are happy 
        and healthy and have never been around drug abuse, alcoholism 
        or physical or emotional abuse. However, many of the children I 
        mention are often the children CPS swears up and down need to 
        be removed from their natural families. Why would they do this? 
        Incentives from the Senate Finance Committee. Please do not get 
        me wrong, I do not enjoy suggesting this because I know that it 
        sounds terrible, but corruption like this happens when money 
        and unchecked power meet up with one another.

      One other important thing you need to know. Child Protective 
        Services uses ``The Adoption and Safe Families Act'' rule of 15 
        out of 22 months, not as an opportunity to work with parents, 
        but as a way to keep parents busy until the 15 months is up. I 
        cannot express the level of grief I have read about repeatedly 
        from parents desperately trying to jump through every hoop 
        placed in front of them during those 15 months (sometimes less) 
        only to be told in the end they just did not do enough. In 
        addition, the natural parents are told that their child has now 
        bonded with the foster parents and it would really be in the 
        best interests of the child to stay with them and be adopted by 
        them. Of course, CPS creates this unnatural bonding situation 
        by only allowing the natural parents to see their children 
        under supervised visitation for an average of 4 hours a week.

      I know that you want to believe that Child Protective Services 
        just needs a little tune-up. I know that what I am saying here 
        sounds sensational and farfetched. I am aware that you probably 
        think that the things I mention only happen in remote 
        situations where bad workers make bad decisions. I am here to 
        tell you that this is happening all across the United States 
        every day. The massive Federal funds you are allocating to 
        remove children from their natural families and move these 
        children towards adoption, are only working to destroy natural 
        families in America, and they have been destroying them for 
        almost 2 decades. We cannot fix this problem by pretending it 
        is not that bad. We can fix this problem only when we 
        acknowledge the mistakes of the past and work toward improving 
        the future. Please be that change.

    Respectfully,
    Deborah Perin

                                   [all]
                                   


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
